No. 19In the

Supreme Court of the United States
DARIUS GREEN,
Petitioner,
v.
Bradley Hooks, John Brown
and Torie Grubbs
Respondents.
On Petition for a Writ of Certiorari to the United
States Court of A ppeals for the Eleventh Circuit

PETITION FOR A WRIT OF CERTIORARI
Julie Oinonen
Williams Oinonen LLC
44 Broad Street, NW, Suite 200
Atlanta, Georgia 30303
(404) 654-0288
John M. Shoreman
McFadden & Shoreman
1050 Connecticut Avenue, NW,
Suite 500
Washington, DC 20036
(202) 772-3188

Mario B. Williams
Counsel of Record
Williams Oinonen LLC
NDH LLC
44 Broad Street, NW, Suite 200
Atlanta, Georgia 30303
(404) 254-0442
mario@goodgeorgialawyer.com
mwilliams@ndh-law.com

Counsel for Petitioner
296329

A
(800) 274-3321 • (800) 359-6859

i
QUESTIONS PRESENTED FOR REVIEW
1. Under Farmer v. Brennan, 511 U.S. 825 (1994),
is a court precluded from granting summary judgment
to defendants where there is evidence of an obvious,
substantial risk of harm to a plaintiff based on an inmate’s
personal characteristics when considered in combination
with material facts on the record?
2. Does the Eighth Amendment require a plaintiff to
notify prison officials of a specific risk of harm, including
the name of an assailant and the specific form of harm?

ii
PARTIES TO THE PROCEEDING
Darius Green is the Petitioner. Respondents are
Bradley Hooks, John Brown, and Torie Grubbs.

iii
RELATED PROCEEDINGS IN FEDERAL
AND APPELLATE COURTS
Green v. Hooks, et al., No. 17-11785-GG, United States
Court of Appeals for the Eleventh Circuit. Judgment
Entered January 6, 2020.
Green v. Hooks, et al., No. 6:14-cv-00046-JRH-GRS,
United States District Court for the Southern District of
Georgia. Judgment Entered March 21, 2017.

iv
TABLE OF CONTENTS
Page
QUESTIONS PRESENTED FOR REVIEW . . . . . . . . . i
PARTIES TO THE PROCEEDING  . . . . . . . . . . . . . . . ii
RELATED PROCEEDINGS IN FEDERAL
AND APPELLATE COURTS . . . . . . . . . . . . . . . . .  iii
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . iv
TABLE OF APPENDICES . . . . . . . . . . . . . . . . . . . . . . vii
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . .  viii
CITATIONS TO OPINIONS BELOW . . . . . . . . . . . . . . 1
BASIS FOR JURISDICTION . . . . . . . . . . . . . . . . . . . . . 1
CONSTITUTIONAL PROVISION INVOLVED  . . . . . 1
INTRODUCTION  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
1.

Snapshot of split amongst circuits . . . . . . . . . . . . 4

STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . . . 6
I.

Basis for jurisdiction in the court of first
instance . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

II. The event at issue . . . . . . . . . . . . . . . . . . . . . . . . . . 6

v
Table of Contents
Page
III. First instance proceedings and the District
Court’s Order . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
IV. Facts relevant to the questions presented
for review . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
A. The August 28, 2012 meeting between
Petitioner Green, Warden Hooks, and
Deputy Warden Brown . . . . . . . . . . . . . . . . 10
1.

Respondents’ knowledge on August
28, 2012 regarding Green’s risk
of sexual assault  . . . . . . . . . . . . . . . . . . 11

B. Respondents’ knowledge of Green’s
status as a transgender inmate and of
risks to her safety . . . . . . . . . . . . . . . . . . . . .13
C. Green’s September 21, 2012 placement in
Administrative Segregation (protective
custody) with Ricard . . . . . . . . . . . . . . . . . . 14
1.

Ad m i n i st r at ive S eg reg at ion
policies at Rogers  . . . . . . . . . . . . . . . . . 15

2. Respondents’ knowledge of Green’s
assailant, Dar r yl Ricard, on
September 21, 2012.  . . . . . . . . . . . . . . . 16

vi
Table of Contents
Page
3.

Ev idence of Respondent s’
authorization of Green’s placement
w it h R i c a r d on S ept e mb e r
21, 2012 . . . . . . . . . . . . . . . . . . . . . . . . . . 18

REASONS FOR GRANTING THE PETITION  . . . . 19
I.

The Eleventh Circuit’s opinion heightens
the deliberate indifference standard by
ignoring circumstantial evidence that,
when combined w ith other mater ial
facts, shows that a risk is obvious  . . . . . . . . . . 19

II. The majority of circuit courts recognize
that evidence of a prisoner’s personal
cha racter istics in combination w ith
other material facts, may support an
inference of subjective awareness  . . . . . . . . . . . 24
III. The majority of circuits reject requiring
a plaintiff allege a specific source of harm
and form of harm suffered  . . . . . . . . . . . . . . . . . 29
IV. The Eleventh Circuit erroneously applied a
pre-Farmer specific risk requirement . . . . . . . . 32
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 34

vii
TABLE OF APPENDICES
Page
APPENDIX A — OPINION OF THE UNITED
STAT ES COU RT OF A PPEA LS FOR
T HE ELEV EN T H CIRCU I T, FILED
JANUARY 6, 2020 . . . . . . . . . . . . . . . . . . . . . . . . . . . 1a
A P P E N DI X B — O P I N ION O F T H E
UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF
GE OR GI A , S TAT S BOR O DI V I SION,
DATED MARCH 21, 2017 . . . . . . . . . . . . . . . . . . . . 36a

viii
TABLE OF CITED AUTHORITIES
Page
Cases
Bistrian v. Levi,
696 F.3d 352 (3d Cir. 2012) . . . . . . . . . . . . . . . 25, 27, 31
Calderon-Ortiz v. Laboy-Alvarado,
300 F.3d 60 (1st Cir. 2002) . . . . . . . . . . . . . . . . . . . . . 31
Curry v. Scott,
249 F.3d 493 (6th Cir. 2001) . . . . . . . . . . . . . . . . . . . . 32
Giraldo v. California Dept. of Corrections
and Rehabilitation,
168 Cal. Appx. 4th 231 (1st Dist., 2008)  . . . . . . . . . . 25
Giroux v. Somerset Cty.,
178 F.3d 28 (1st Cir. 1999) . . . . . . . . . . . . . . . . . . . 25, 27
Green v. Hooks, et al.,
798 Fed. App’x 411 (11th Cir. 2020) . . . . . . . . . . . . . . . 1
Greene v. Bowles,
361 F.3d 290 (6th Cir. 2004) . . . . . . . . . . . . . . . . passim
Hayes v. N.Y. City Dept. of Corr.,
84 F.3d 614 (2d Cir. 1996) . . . . . . . . . . . . . . . . . . . . . . 31
Howard v. Waide,
534 F.3d 1227 (10th Cir. 2008) . . . . . . . . . . . . . . passim

ix
Cited Authorities
Page
Jenson v. Clarke,
73 F.3d 808 (8th Cir. 1996) . . . . . . . . . . . . . . . . . . . . . 26
Jones v. Clark,
No. 3:09CV00214BSM/JJV, 2010 WL 234958
(E.D. Ark. Jan. 15, 2010)  . . . . . . . . . . . . . . . . . . . . . . 26
Kosilek v. Spencer,
774 F.3d 63 (1st Cir. 2014) . . . . . . . . . . . . . . . . . . . . . 124
Marbury v. Warden,
936 F.3d 1227 (11th Cir. 2019)  . . . . . . . . . . . . . . . 24, 34
Marsh v. Arn,
937 F.2d 1056 (6th Cir. 1991)  . . . . . . . . . . . . . . . . . . . 33
Mosher v. Nelson,
589 F.3d 488 (1st Cir. 2009) . . . . . . . . . . . . . . . . . . . . 27
Price v. Sasser,
65 F.3d 342 (4th Cir. 1995) . . . . . . . . . . . . . . . . . . . . . 32
Riccardo v. Rausch,
375 F.3d 521 (7th Cir. 2004), cert. denied,
544 U.S. 904 (U.S. Mar. 7, 2005) . . . . . . . . . . 30, 34, 35
Ruefly v. Landon,
825 F.2d 792 (4th Cir. 1987) . . . . . . . . . . . . . . . . . . . . 33

x
Cited Authorities
Page
Smith v. Brenoettsy,
158 F.3d 908 (5th Cir. 1998) . . . . . . . . . . . . . . . . . . . . 31
Street v. Corrections. Corp. of Am.,
102 F.3d 810 (6th Cir. 1996)  . . . . . . . . . . . . . . . . . 33, 34
Taylor v. Michigan Dept. of Corrections,
69 F.3d 76 (6th Cir. 1995) . . . . . . . . . . . . . . . . . . . 25, 28
Velez v. Johnson,
395 F.3d 732 (7th Cir. 2005) . . . . . . . . . . . . . . . . . . . . 32
Webb v. Lawrence Cty.,
144 F.3d 1131 (8th Cir. 1998)  . . . . . . . . . . . . . . . . 24, 25
Weiss v. Cooley,
230 F.3d 1027 (7th Cir. 2000) . . . . . . . . . . . . . 25, 26, 27
Williams v. McLemore,
247 Fed. Appx. 1 (6th Cir. 2007) . . . . . . . . . . . . . . 5, 30
Wilson v. Wright,
998 F. Supp. 650 (E.D. Va. 1998) . . . . . . . . . . . . . . . . 33
Woods v. Lecureux,
110 F.3d 1215 (6th Cir. 1997)  . . . . . . . . . . . . . . . . . . . 30
Young v. Quinlan,
960 F.2d 351 (3d Cir. 1992) . . . . . . . . . . . . . . . . . . 25, 27

xi
Cited Authorities
Page
Zollicoffer v. Livingston,
169 F. Supp. 3d 687 (S.D. Tex. 2016) . . . . . . . . . . . . . 25
Statutes and Other Authorities
U.S. Const., Amend. VIII . . . . . . . . . . . . . . . . . . . . . . . . . 1
28 U.S.C. § 1254(1) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
28 U.S.C. § 1291  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
28 U.S.C. § 1331  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
28 U.S.C. § 1332  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
28 U.S.C. § 1343  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
42 U.S.C. § 1983  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
77 Fed. Reg. 37107 (June 20, 2012) . . . . . . . . . . . . . . . . . 24
A llen J. Beck Et A l., U.S. Dep’t Of Justice,
B u r e au O f J u s t ic e S tat i s t ic s , S e x ua l
Victimization In Prisons A nd Jails Reported
By Inmates, 2011–12 9 (2013) . . . . . . . . . . . . . . . . . . . . 2
Hannah Belitz, Note, A Right Without a
Remedy: Sexual Abuse in Prison and the
Prison Litigation Reform Act, 53 HARV.
C.R.-C.L.L. REV. 291, 297 (2018) . . . . . . . . . . . . . . . . 2

xii
Cited Authorities
Page
Valeria, Jenness, et al., Violence in California
Cor rectional Facilities: An Empir ical
Examination of Sexual Assault. Report to
the California Department of Corrections
and Rehabilitation. Sacramento, California
(2007)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2

1
CITATIONS TO OPINIONS BELOW
The Opinion of the United States Court of Appeals for
the Eleventh Circuit, which affirmed the United States
District Court for the Southern District of Georgia, is
available at Green v. Hooks, et al., 798 Fed.App’x 411
(11th Cir. 2020) and is reprinted in the appendix at Appx.
1a. The Order of the United States District Court for
the Southern District of Georgia was not reported in
F.Supp.3d. The District Court’s Order is reprinted in the
appendix at Appx. 36a.
BASIS FOR JURISDICTION
The judgment of the United States Court of Appeals
for the Eleventh Circuit was entered as an Unpublished
Opinion on January 6, 2020. The jurisdiction of the
Supreme Court of the United States is invoked under 28
U.S.C. § 1254(1).
CONSTITUTIONAL PROVISION INVOLVED
“Excessive bail shall not be required, nor excessive
fines imposed, nor cruel and unusual punishments
inflicted.” United States Constitution, Amendment VIII.
INTRODUCTION
Refusing to consider a prisoner’s transgender status,
when determining whether a transgender prisoner faces a
serious threat of harm in a male prison full of maximumsecurity prisoners, violates this Court’s precedent.
See Farmer, 511 U.S. 825. Nevertheless, despite every
indication that the Petitioner’s transgender status,

2
along with material facts, established a threat of being
raped that was easily appreciated and understood by
Respondents, the Eleventh Circuit stated that “Green’s
status as a transgender inmate does not change our
analysis” while affirming the District Court’s Order.
Appx. 27a. Such reasoning and outcome poses a serious
threat to any chance of holding prison officials accountable
when dealing with a recognized vulnerable group that
already suffers from stigmatization and prejudice.
Sexual abuse is an epidemic in U.S. prisons. A 2013
federal survey found that over 80,000 prisoners reported
they had been sexually victimized over a two-year period,1
a number almost five times the rate reported by prison
administrators. 2 A prisoner’s likelihood of becoming a
victim of sexual abuse is roughly thirty times higher than
that of a person on the outside. 3 And that likelihood is
exponentially higher for transgender prisoners.4
Against this backdrop, on August 28, 2012, Petitioner
Green, a transgender prisoner housed at Rogers State
1. A llen J. Beck Et A l., U.S. Dep’t Of Justice, Bureau Of
Justice Statistics, Sexual Victimization In Prisons A nd Jails
Reported By Inmates , 2011–12 9 (2013), https://www.bjs.gov/
content/pub/pdf/svpjri1112.pdf.
2. Hannah Belitz, Note, A Right Without a Remedy: Sexual
Abuse in Prison and the Prison Litigation Reform Act, 53 HARV.
C.R.-C.L.L. REV. 291, 297 (2018).
3. Id.
4. Valeria, Jenness, et al., Violence in California Correctional
Facilities: An Empirical Examination of Sexual Assault.
R eport to the California D epartment of C orrections and
Rehabilitation. Sacramento, California (2007).

3
Prison in Georgia, met with Warden Hooks and Deputy
Warden Brown to discuss a letter Green wrote to her
mother. In the letter, Green told her mother that she was
“in big need of help and [that] it is life or death,” that she
“might be seriously hurt or killed,” and that she needed an
“immediate transfer;” Green’s mother dutifully passed the
letter on to prison officials, on top of personally conveying
the content of the letter to Warden Hooks. But Warden
Hooks and Deputy Warden Brown took no action because
Green was unwilling to reveal the name of the inmate who
had been abusing her. Green’s reluctance was in large
part because, in prison life, as those acquainted with it
well know, “ratting” or “snitching” can get you killed.
Consequently, Green said she was okay, and according
to the lower courts, that statement alone negated all the
facts demonstrating danger to Green—despite two expert
reports and a laundry list of material facts (including
missing segregation memos and activity logs) that
demonstrated these Respondents absolutely appreciated
the risk of harm posed to Green. Green was sent back
to general population, where her assailant, Ricard (who
was serving a life sentence for rape and molestation),
continued to sexually assault Green by forcing her to
perform oral sex. Notably, Ricard was the recognized
high-ranking vice lord gang leader and also Green’s dorm
leader who met with Warden Hooks monthly in efforts to
keep the dorm under control, a fact inextricably tied to
Ricard’s documented history of providing information
to prison officials.
The story turns even more tragic. Green and two
other known and self-identifying homosexual inmates
were kicked out of their dorm (“put on the door”) by
fellow inmates who refused to live with openly homosexual

4
inmates. At that point, Green sought protective custody by
telling Respondent Lt. Grubbs that she was in fear for her
life as a transgender inmate. But instead of placing Green
in a cell with one of her friends who had been put “on the
door” with her, Respondents placed Green in a “protective
custody” cell with the very rapist she was trying to escape,
Ricard, who then orally and anally raped Green, a rape
that Respondents confirmed through testing afterwards.
Worth repeating, Warden Hooks approved Green to be
placed in protective custody, not with one of the two selfidentifying homosexual friends she left the dorm with,
but with Ricard, the very person who had been sexually
assaulting Green. The lower courts treated this fact,
shockingly, as mere coincidence; common sense dictates
otherwise. Green’s odds at winning the lottery would have
been higher than being placed in a protective custody cell
with her sexual assailant out of all the prisoners in the
entire prison.
1. Snapshot of split amongst circuits
The Eleventh Circuit’s opinion joins a widening split
on how to prove the subjective prong of the “deliberate
indifference” standard, which is an evidentiary burden
that is now in flux. The courts of appeals disagree on at
least two fundamental questions regarding the application
of Farmer at summary judgment: (1) whether prison
officials’ and guards’ actual knowledge of a risk can be
shown by a prisoner’s personal characteristics when taken
into consideration alongside other material facts; and (2)
whether a prisoner is required to identify the name of her
assailant or the specific form of harm she fears.

5
The majority of circuit courts hold that under Farmer,
a court may infer that an official had knowledge of a risk
of harm because a prisoner’s personal characteristics, in
combination with material facts, made the risk of assault
obvious. See e.g., Greene v. Bowles, 361 F.3d 290, 294–95
(6th Cir. 2004). Here, the Eleventh Circuit’s opinion
ignored this approach. See Appx. 27a, 31a. In addition
to ignoring her personal characteristics, the Eleventh
Circuit required Green to identify her potential assailant
with specificity in order to demonstrate deliberate
indifference. See id. Again, the majority of courts disagree
with the Eleventh Circuit and do not require a prisoner
to identify the assailant or source of harm she fears, to
demonstrate deliberate indifference. See e.g., Howard v.
Waide, 534 F.3d 1227, 1237 (10th Cir. 2008). As the Sixth
Circuit has said, “nothing in Farmer suggests that [the
prisoner’s] claim must fail because he cannot identify the
person who stabbed him.” Williams v. McLemore, 247 Fed.
Appx. 1 (6th Cir. 2007).
This Court’s opinion in Farmer contained a solution:
“[A] factfinder may conclude that a prison official knew
of a substantial risk from the very fact that the risk
was obvious.” Farmer, 511 U.S. at 842. By refusing
to consider circumstantial evidence showing a risk is
obvious, like Petitioner’s transgender status, and by
requiring a prisoner to state the specific source of harm
she fears, the below opinion impermissibly raised an
Eighth Amendment plaintiff’s evidentiary burden. In
the twenty-five years since Farmer, the Supreme Court
has not returned to consider the Eighth Amendment’s
subjective intent requirement. On behalf of all prisoners
in the United States, and especially LGBTQ minorities,
Green respectfully asks for review of the Eleventh
Circuit’s opinion.

6
STATEMENT OF THE CASE
I.

Basis for jurisdiction in the court of first instance

The jurisdiction of the district court was invoked
under 28 U.S.C. §§ 1331, 1332, and 1343. The jurisdiction
of the court of appeals was invoked under 28 U.S.C. § 1291.
At all times relevant, Petitioner Green was a citizen of the
United States residing in the state of Georgia.
II. The event at issue
On July 19, 2012, Darius Green, a transgender woman
(born biologically male), was transferred to Rogers State
Prison (“Rogers”) from the Georgia Diagnostic and
Classification Prison (“GDCP”), where she was classified
for placement inside the Georgia Prison System. While
at GDCP, Green was held in Administrative Segregation
because of her transgender status, feminine appearance
(Green began taking hormone therapy six years prior to
her incarceration at Rogers) and pronounced breasts. (DE
163-2, pp. 9-10); (DE 144, pp. 23-36.)
Upon her arrival at Rogers on July 19, 2012, Green
was again placed in Administrative Segregation and
was issued a bra. Id. The Assignment Memo, detailing
why she was placed in Administrative Segregation at
Rogers, is missing. Four days later, when Green entered
general population, she was approached by Darryl
Ricard, a formerly high-ranking gang member and the
representative of Green’s new dorm. Id. at pp. 54-55.
Ricard was serving a life sentence for aggravated child
molestation, aggravated assault, rape, and kidnapping.
Initially, Ricard offered Green protection. Id. at pp. 57-

7
71. About two weeks later, Ricard assaulted Green and
demanded that Green perform oral sex on him whenever
he desired thereafter. Id. Ricard threatened that he would
have Green killed if she reported him or tried to leave.
(DE 132-1, pp.11-12.)
On August 24, 2012, Green wrote a letter to her
mother, which read:
Mother, how are you? I am writing you now on
an emergency basis I am in big need of help and
it is life or death at this current time my life –
is in great danger, listen I need for you to get
me the address to the Dept of Correction, the
address to the Commissoner the directors of
the GA Department of Corrections something
somebody I can write to get me an immediate
transfer. I have to get transferred from this
camp mother ASAP I don’t want to go to the
hole or P.C. unless it is absolutely necessary I
have control of the situation for now but once I
don’t I might be seriously hurt or killed I am
very scared but I am playing my part This
is VERY Important I need those addresses
ASAP I will explain the situation later Love
you poohbear
(DE 162-21.) When Green’s mother received the letter, she
sent it to Warden Hooks, who, in response, brought Green
in for a meeting on August 28, 2012. Green, Hooks, and
Deputy Warden Brown were in attendance. Green stated
that she was “okay,” to which Hooks replied, “Well, I don’t
believe you…” (DE 144, pp. 84-85, 91-95.) Hooks never
asked Green if she had any problems, if she was in danger,

8
or if she wanted to be placed in protective custody. (DE
144, pp. 82-89.) Both Hooks and Brown had the authority
to place Green in protective custody at that time based
on their own observations and perceptions of Green and
Green’s vulnerability as a transgender inmate; neither
chose to do so. Hooks then sent Green back to general
population because Green did not name the person who
posed a threat to Green. (DE 142, pp. 85-88, 90-96.) Hooks
gave Green a piece of paper to take back with her because
Hooks knew the risks to Green for the appearance of
being a snitch by way of visiting Hooks’ office. (DE 143,
p. 50-51, 85.)
Thereafter, on September 21, 2012, Green sought
protective custody with two other inmates, both of whom
are also homosexual. Green told Lt. Grubbs that she
feared for her life as a transgender inmate. When Green
was escorted to her protective custody cell, Ricard was
waiting for her. Green told Ricard that she did not want to
be around him. In response, Ricard forcibly raped Green,
orally and anally. After being raped, Green secretly wrote
a letter that read, “I’m being forced to have sex.” Ricard
found out about the letter and subsequently chased Green
around the cell with a razor blade. (DE 132-1, pp. 31-37.)
The Sexual Assault Response Team investigated, and
ultimately substantiated Green’s allegations of rape.
III. First instance proceedings and the District Court’s
Order
This is an action alleging federal claims pursuant
to 42 U.S.C. § 1983. (DE 1.) Green’s complaint asserted
that all Respondents violated the Eighth and Fourteenth
Amendments because they were deliberately indifferent

9
to a known risk that Green would be sexually assaulted,
and asserting a supervisory-liability claim against all
Respondents for violating the Eighth Amendment by
failing to protect Green from sexual assault. (DE 1.) At the
time of summary judgment, Hooks, Brown, and Grubbs
were the remaining Defendants.
After briefing through summary judgment, the
District Court granted Defendants’ Motion for Summary
Judgment in its entirety and closed this case. (DE 217,
218.) In doing so, the District Court concluded that Green
did not present enough evidence to create a triable issue
as to whether Hooks, Brown, or Grubbs had subjective
knowledge of a risk of serious harm and were deliberately
indifferent to the risk of serious harm, including rape, to
Green. Id. Since Green failed, according to the District
Court, to establish deliberate indifference amounting
to a constitutional violation, the District Court granted
Respondents summary judgment motion. Id. On the same
grounds, per the District Court, Green’s supervisoryliability claims failed. The Eleventh Circuit Court of
Appeals affirmed. (Appx. 34a).
IV. Facts relevant to the questions presented for review
The following subsections will juxtapose the District
Court’s and the Eleventh Circuit’s reasoning with the
material facts that are relevant to the questions presented
for review. The evidence presented within was on record
at the time that the below courts reasoned that there
was no genuine issue of material fact as to whether the
Respondents had subjective knowledge of Green being
in danger throughout her incarceration at Rogers State
Prison.

10
A.

The August 28, 2012 meeting between Petitioner
Green, Warden Hooks, and Deputy Warden
Brown

The District Court disagreed with Green’s allegation
that the Respondents had subjective knowledge of a
risk of serious harm resulting from their receipt and
consideration of Green’s letter to her mother, stating:
“Given the lengths to which Warden Hooks
went to investigate Plaintiff’s complaint and
Plaintiff’s steadfast refusal to tell the truth, no
reasonable jury could find that he subjectively
knew she was in danger. Although Hooks and
Brown could have chosen to disbelieve Plaintiff
in spite of her confidential assurances to the
contrary, the Constitution does not require
them to do so. It is illogical to conclude that
Plaintiff could successfully claim prison
officials not only should have known, but did in
fact know, that she was in danger, despite her
personal assurances that she was not.” Appx.
60a (emphasis added).
Similarly, the Eleventh Circuit Court of Appeals found
that:
“Green’s strenuous denials about being in
danger effectively erased any “subjective
knowledge” that the prison officials might
otherwise have had from the initial letter and
the phone call from Green’s mother to Warden
Hooks...Having already determined that
Green’s denials to Warden Hooks and Deputy

11
Warden Brown rebutted the danger alleged
in the letter, Green’s status as a transgender
inmate does not change our analysis.” Appx.
26a (emphasis added).
And:
“The record indicates that Green was given
a piece of paper to prevent suspicion by other
inmates that she was a “snitch.” This action
shows that Warden Hooks was subjectively
aware of a different potential harm – the risk
of physical harm to Green based on other
inmates’ belief that she was a snitch – not that
Warden Hooks was aware of the risk of sexual
violence that Ricard posed to Green.” Appx.
28a (emphasis added).
1.

Respondents’ knowledge on August 28,
2012 regarding Green’s risk of sexual
assault

(1)	When, in the August 28, 2012 meeting, Green
reported that she “was okay”, Hooks replied,
“Well, I don’t believe you. Your mother’s calling
saying this and that.” (DE 142-13, p. 84)
(2) At this meeting, Hooks never asked Green if she
had any problems, if she was in danger, or if she
wanted to be placed in protective custody. (DE
142-13, pp. 82-89)
(3) Hooks testified that he sent Green back to general
population because Green did not name the

12
person who posed a threat to Green and that “we
can’t protect you from somebody if we don’t know
who it is.” (DE 142, p. 54-55.)
(4) Fear of retaliation is one of the g reatest
deterrents to inmates reporting sexual assault
and to inmates naming a specific assailant. (Gunja
Report, “[t]hat’s what the inmates have to say or
he’s going to be labeled a snitch…You can’t just
take an inmate at his word for something like
that. You’ve got to go above and beyond and take
the matter into your own hands. You don’t rely on
what an inmate tells you.”); (DE 147, p. 63, 67)
(5) Inmates are not required to name the person they
fear in order to be placed in protective custody.
(DE 150, pp. 38-40.)
(6) Hooks testified that he knew that inmates who
report other inmates face great danger and risk
repercussions for reporting, including physical
and sexual assault. (DE 142, pp. 94-95.)
(7) Hooks testified that he knew inmates lied and
refused to report wrongdoing or their fear of a
person. (DE 142, 94-05.)
(8) On the night of September 21, 2012, when
requesting protective custody, Green told Grubbs
that she feared for her life as a transgender inmate
and this was recorded on her Administrative
Segregation Assignment Memo. (DE 144, p. 104)

13
B. Respondents’ knowledge of Green’s status as a
transgender inmate and of risks to her safety
(1) At GDCP, Green was immediately placed in
protective custody and housed in an “honor dorm”
with other transgender inmates because she was
transgender.
(2) Green was similarly placed in Administrative
Segregation upon her arrival to Rogers. The
Assignment Memorandum from her intake on
July 19, 2012, the only document that would state
the reason for her placement in Administrative
Segregation upon arrival at Rogers on July 17,
2012, is missing.
(3) Hooks a nd Brow n k new that Green was
transgender at the August 28, 2012 meeting.
(4) Green told Hooks she had formerly been in
protective custody at GDCP prior to arriving at
Rogers because she was transgender. (DE 144,
p. 19.)
(5) Brown testified that: “Green’s characteristics
were evident to me the first time I saw him at
the institution…” (DE 141, p. 71.)
(6) Green’s profile includes characteristics that
render her differentially vulnerable to sexual
assault in carceral environments. Institutional
records indicated that Green was diagnosed with
“gender identity disorder” and that she might
have “possible gender issues with housing.” (DE
163-2, p. 9.)

14
(7) Upon her transfer to Rogers, Green was stripped
naked and searched in front of other incoming
inmates and several guards, exposing her breasts
and feminine appearance. (DE 144, p. 29.)
(8) At Rogers, Green was immediately placed in
Administrative Segregation and was issued a
bra. (DE 144, p. 29.)
(9) In 2012, it was common knowledge and described
in GDC SOPs that transgender inmates and
transgender women locked up in male detention
facilities are at a higher and serious risk of harm
and sexual assault. (DE 163-2, p. 9.)
(10) GDC training emphasized to Hooks and Brown
that transgender persons in the prison system
faced high risks, including risks of sexual assault.
(DE 162, pp. 18, 20); (DE 162-2, p. 9.)
C.

Green’s September 21, 2012 placement in
Administrative Seg regation (protective
custody) with Ricard

In relation to the placement of Green and Ricard in
the same Administrative Segregation cell on September
21 2012, the District Court found that “[Green] fails to put
forth any evidence that any Defendant knew that pairing
the two prisoners together would have placed Plaintiff at
a substantial risk of serious harm.” Appx. 62a (emphasis
added). In a similar vein, the Eleventh Circuit Court of
Appeals found that:

15
“Even assuming, arguendo, that Lieutenant
Grubbs made the cell assignments and/or
agreed to place Ricard in the same cell with
Green, such action does not establish that
Lieutenant Grubbs acted with deliberate
indifference to Green’s safety because there is
no evidence that Lieutenant Grubbs was aware
of any threat posed by Ricard to Green.” Appx.
31a (emphasis added).
The following evidence was on record at the time of
the District Court and Eleventh Circuit’s findings:
1.

Administrative Segregation policies at
Rogers

(1) When an inmate requests protective custody,
regardless of whether the inmate names a specific
threat, an officer in charge has the authority and
it is their job to immediately place the inmate
in a single-occupancy room “for [the inmate’s]
personal protection, and for his safety so nobody
can touch him while he’s locked up in that cell.”
(DE 150, pp. 38-40.)
(2) GDC’s Standard Operations Procedures for
Administrative Segregation state, as the only
underlined passage in the Voluntary Assignment
section: “Double bunking of offenders in protective
custody status shall occur only in emergency
situations and only with the recommendation
of the facility Classification Committee. This
recommendation shall be approved by the
facility warden.” (emphasis in original). No

16
“emergency situation” is noted in the Assignment
to Segregation Memo or the Segregation Hearing
Memo.
(3) “PROTECTIVE CUSTODY” was written on
Green’s Move Sheet on September 21, 2012 and
Brown testified that was the reason Green was
moved from general population on September
21, “because the inmate was placed in protective
custody at this time.” (DE 141, 29, 80-81.)
(4) Hooks testified that inmates in protective custody
are placed in single-man cells. (DE 142, pp. 7273).
(5) Hooks testified that there is a special document
that must be filled out by inmates before they are
permitted to be housed in the same protective
custody cell. (DE 142, Hooks Dep., pp. 72-73).
Green was not presented with the form that must
be filled out by inmates before they are permitted
to be housed in the same protective custody cell.
2.

Respondents’ knowledge of Green’s
assailant, Darryl Ricard, on September
21, 2012.

The District Court then reasoned that “[s]ure, Ricard
had a criminal history of rape, but [Green] produced no
evidence that any Defendant knew Ricard’s criminal
history at the time [Green] was placed in his cell [on
September 21, 2012]. Neither is it a reasonable inference
that they had such knowledge.” Appx. 62a (emphasis
added). At the time the District Court made such a
statement, the following evidence was on record:

17
(1) Officers in Charge are required to check inmates’
SCRIBE pages, which note inmates’ criminal
history, before housing inmates in the same cell
in Administrative Segregation.
(2) The SCRIBE system showed that Ricard was
a sex offender, had convictions for rape and
aggravated molestation, came into GDC as a close
security inmate, and had a life sentence.
(3) Ricard was well-known by prison staff and
administrators. (DE 157, p. 38); (DE 157-5, ¶ 19);
(DE 145, p. 59); (DE 163-3, 00:19:14 to 00:19:28)
(4) Reid testified that Grubbs knew of Ricard’s
violent background and that Grubbs was Ricard’s
“partner,” that they “talked all the time” and
were “always laughing and stuff of that nature”
(DE 143, pp 43-45, 47); (DE 157-4); (DE 157-5,
¶¶ 21-22, 24.)
(5) Grubbs knew Ricard made Green sleep in his
bed after lockdown hours when no inmates
should have been allowed to roam around the A1
dorm. (DE 163-3, Ricard GBI Interview Audio
Recording, 00:17:33 to 00: 18:00.)
(6) Hooks testified that he reviewed gang affiliations
monthly and knew Ricard had been a gang
member. (DE 142, p. 65.)
(7) Hooks testified that he knew Ricard was in prison
for sexual assault and rape because he looked at
Ricard’s institutional file. (DE 142, p. 65-66.)

18
(8) Ricard was a dorm leader and met with Hooks
every month in his role as dorm representative.
3.

Evidence of Respondents’ authorization
of Green’s placement with Ricard on
September 21, 2012

(1) The Assignment Memos for both Green and
Ricard show that both Hooks and Grubbs knew
and authorized the assignment of Green and
Ricard to the same cell on September 21, 2012.
(DE 141, pp. 74-75); (DE 142, pp. 50-51); (DE 142,
pp. 59-61.); (DE 142-12); (DE 142-16); (DE 162,
pp. 3, 21.)
(2) Hooks and Grubbs testified that Grubbs was the
individual who ultimately made the determination
where to put Green on September 20, 2012. (DE
142, Hooks Depo, p. 61); (DE 143, Grubbs Depo.
p. 51); (DE 143-3)
(3) Ricard told Green that he got Grubbs to get Green
into his cell on September 21, 2012. (DE 144, pp.
113-188.)
(4) Douthitt testi f ied that Ricard requested
Protective Custody so that Ricard could be with
Green. (DE 151, pp. 33.)
(5) Inmates who were housed with Ricard in A1
believed Ricard was a “snitch” and Ricard had a
documented history of cooperating with prison
officials to provide them with information. (DE
162-23); (DE 163-26); (DE 151, pp. 64-66); (DE
156, p. 30); (DE 145, pp. 38-43, 60-72.)

19
(6) Reid testified that after Green requested
protective custody on September 20, 2012, Ricard
told Grubbs that he would tell Grubbs where
drugs, shanks, and cell phones were located, in
exchange for Grubbs arranging for Ricard to be
placed in the same Administrative Segregation
cell as Green. (DE 157, pp. 30-33.); (DE 162, pp.
7, 21-23.)
(7) Reid testified that shortly after Ricard told
Grubbs where the contraband was located,
Grubbs and other guards initiated a shakedown
and confiscated multiple items. (DE 157, pp. 3033.)
REASONS FOR GRANTING THE PETITION
I.

The Eleventh Circuit’s opinion heightens the
deliberate indifference standard by ignoring
circumstantial evidence that, when combined with
other material facts, shows that a risk is obvious

The Eleventh Circuit’s interpretation and application
of Farmer differs crucially from the interpretation of this
Court and other courts of appeals. Here, the Eleventh
Circuit refused to consider Green’s personal characteristic
of being transgender, a characteristic that, when combined
with other material facts, demonstrated an obvious risk.
Instead, the Eleventh Circuit concluded that “Green’s
status as a transgender inmate does not change our
analysis.” Appx. 27a.
In Farmer, this Court remarked that a prison guard’s
state of mind is “subject to demonstration in the usual

20
ways, including inference from circumstantial evidence”
and may be inferred “from the very fact that the risk
was obvious.” Id. at 842. The Court noted that the risk of
sexual assault to the prisoner was obvious because he was
a non-violent, transgender prisoner who “because of [his]
youth and feminine appearance [was] likely to experience
a great deal of sexual pressure in prison.” Id. at 848–49.
By making such a statement, this Court sent the message
to the Eleventh Circuit and every court in this country
that a prisoner’s transgender status must be considered
when considering a potential risk of harm posed to that
prisoner. Notably, upon her arrival to Rogers, Green had
pronounced breasts, arched eyebrows, and an undeniably
feminine appearance.
Moreover, this Court established in Farmer that
proving subjective awareness by pointing to evidence that
a risk is obvious does not require a prisoner to reveal the
exact identity of the potential assailant. See id. at 830.
Indeed, in Farmer, the prisoner “voiced no objection to
any prison official about the transfer to the penitentiary
or to placement in its general population” and still, this
Court found that the plaintiff’s personal characteristics,
combined with the prison environment (general housing
in a high-security prison with a history of violence)
was sufficient evidence to preclude granting summary
judgment as a matter of law. Id. Farmer made clear that
a prisoner’s personal characteristics, such as one’s slight
stature or sexual identity, may make her particularly
vulnerable to assault. See e.g., Farmer, 511 U.S. at 848;
Greene, 361 F.3d at 294–95.
Here, when Green’s transgender status is given even
some weight, and considered in combination with other
evidence such as Green’s letter, her mother’s conversation

21
with the Warden, and Warden Hooks actually segregating
Green because of her transgender status upon her arrival
to Rogers State Prison, there is no doubt, on those facts
alone, that there exists a triable issue as to whether the
Respondents appreciated the harm posed to Green, yet
failed to take reasonable steps to abate that harm.
The lower courts, however, placed zero weight on
Green’s status as a transgender prisoner, meaning that
she belongs to a vulnerable group, evidenced by, inter
alia, the Eleventh Circuit’s statement that “Green’s status
as a transgender inmate does not change our analysis.”
See Appx. 27a, 31a (omitting Green’s transgender status
from analysis). The lower courts categorically did not
believe that circumstantial evidence of Green’s personal
characteristics should play a role in the analysis of whether
she faced a serious risk of harm, misapplying Farmer
by ignoring a long line of cases which have interpreted
Farmer as permitting courts to infer a risk is obvious
based, in part, on a prisoner’s personal characteristics.
See e.g., Farmer, 511 U.S. at 842; 848–49; Greene, 361 F.3d
at 294–95. In fact, in unbelievable fashion, and contrary
to how evidence should be assed under the prevailing
standard of review, the Eleventh Circuit acknowledged
that Hooks and Brown had “subjective knowledge” of
harm, but then reasoned that their subjective knowledge
was magically erased. Appx. 26a.
Amongst other material facts outlined in this Petition,
Green’s mother told Warden Hooks about Green’s letter
(and sent a copy of the letter to him), which conveyed
that Green’s situation was “life or death” and “VERY
Important.” Indeed, Green’s mother begged Hooks to
take precautionary measures to protect her child. That
knowledge, indicating a risk of harm, was built upon Hook

22
and Brown’s previous knowledge, such as knowledge
of Green’s breasts and feminine appearance, which led
them to take precautionary actions and segregate Green
upon her entry into Rogers S.P. immediately after her
initial strip search. Notably, Green was issued a bra.
But somehow, despite those facts and more, the lower
courts negated a jury trial as to whether Respondents
appreciated a serious risk of harm posed to Green because
Green refused to identify her assailant and said that she
was “okay.” In doing so, the lower courts refused to credit,
much less even discuss, Green’s expert reports, which
demonstrated that standard within prison culture is that
prisoners will not name a person who poses a threat to
their life due to fear of being labeled a snitch, a reality
that will get prisoners killed. The truth behind Green’s
expert opinions was buttressed by Respondent Hooks,
himself, when he gave Green a letter to take back to the
dorm after their meeting on August 28, 2012, for the very
purpose of protecting Green from being labeled a snitch.
The Eleventh Circuit side-stepped that issue, though, by
simply saying that Hooks recognized a different harm
from the one posed by a risk of sexual assault at the
hands of Ricard. Respectfully, that type of verbal judo
that allowed the Eleventh Circuit to conclude that there
was no known risk of harm chops away at this Court’s
precedent, at the expense of not only of Green’s physical
and emotional integrity, but the physical and emotional
integrity of thousands upon thousands of transgenders
and homosexual prisoners throughout this country.
Similarly, on the night of September 20, 2012, evidence
on the record showed that Lt. Grubbs was aware that
Green, a transgender prisoner, was “put on the door,”
meaning she was forced to leave general population
housing because other prisoners no longer wanted to live

23
with openly homosexual prisoners. Appx. 13a. The record
showed Green requested protective custody and told
Lt. Grubbs that she feared for her life as a transgender
inmate. Appx. 12a, 31a. Ignoring established policy that
prisoners in protective custody are single-celled, Lt.
Grubbs “coincidentally” placed Green in the same cell
with Ricard, instead of in a cell with her friends, if she
had to be placed with another prisoner at all. See Appx.
12a. This coincidence is all the more unbelievable when the
facts on the record are properly considered, including the
testimony of at least three witnesses that Ricard arranged
to be placed in the same protective custody cell as Green,
by revealing to Lt. Grubbs the location of contraband.
See Appx. 12a. Correctly assessed, this circumstantial
evidence approaches almost the entire record in Farmer.
See Farmer, 511 U.S. at 848. While Farmer did not hold
that a plaintiff could survive summary judgment on this
showing alone, when other inferences are properly drawn
in Green’s favor, these facts raise a question that should
have been reserved for a jury.
In su m, t he lower cou r t s er roneously g ave
determinative weight to Green’s claim to be “okay,” to
the exclusion of circumstantial evidence that would allow
inferences to be drawn in Green’s favor regarding the
Respondents’ state of mind: that Hooks and Brown knew
that Green was transgender, and that it was common
knowledge that transgender prisoners in Georgia state
prisons suffer from high rates of sexual assault. See Appx.
27a (“Green’s status as a transgender inmate does not
change our analysis.”)5
5. The lower courts relied on the results of Green’s and
Ricard’s Prison Rape Elimination Act (“PREA”) intake screening
to find Warden Hooks and Deputy Warden Brown had no reason

24
Unfortunately, the Eleventh Circuit’s opinion is not
an aberration but rather a reflection of an established
divide where the Eleventh Circuit and other courts of
appeals have continued to misapply Farmer at summary
judgement. See Webb v. Lawrence Cty., 144 F.3d 1131,
1135 (8th Cir. 1998). Relevantly, a divide on this issue is
brewing even within the Eleventh Circuit, as demonstrated
by Honorable Judge Rosenbaum’s dissent from another
case where the Eleventh Circuit misapplied Farmer
at summary judgment. Marbury v. Warden, 936 F.3d
1227, 1239 (11th Cir. 2019) (Rosenbaum, J., dissenting).
Her dissent is apt here: “[T]he Majority Opinion does
not account for important facts in its analysis” and “the
Majority Opinion evaluates the evidentiary components
of [the prisoner’s Eighth Amendment] claim separately,
rather than considering them as a whole.” Id.
II. The majority of circuit courts recognize that
evidence of a prisoner’s personal characteristics in
combination with other material facts, may support
an inference of subjective awareness
At the outset, many federal courts have recognized
the vulnerability of gay or transgender inmates to abuse.
See Kosilek v. Spencer, 774 F.3d 63, 93 (1st Cir. 2014)
(“Recognizing that reasonable concerns would arise
to suspect that Green was in danger of being sexually assaulted.
The Department of Justice has clearly stated that PREA and the
Eighth Amendment are not coextensive: “[T]he standards are
not intended to define the contours of constitutionally required
conditions of confinement. Accordingly, compliance with the
standards does not establish a safe harbor with regard to
otherwise constitutionally deficient conditions involving inmate
sexual abuse.” 77 Fed. Reg. 37107 (June 20, 2012).

25
regarding a post-operative, male-to-female transsexual
being housed with male prisoners takes no great stretch
of the imagination.”); Zollicoffer v. Livingston, 169 F.
Supp. 3d 687, 696 (S.D. Tex. 2016) (“Nor is it any secret
that gay and transgender prisoners are vulnerable to
abuse in prison.”); see also Giraldo v. California Dept. of
Corrections and Rehabilitation, 168 Cal.Appx.4th 231 (1st
Dist., 2008).
That established, the Eleventh and Eighth Circuits
are at odds with the First, Third, Sixth, Seventh, and
Tenth Circuits, all of whom have acknowledged that
prisoners may be identified as at–risk or may possess
characteristics that they are at a particularly obvious risk
for assault and that prison officials may be found liable
based on their knowledge of those risks, in combination
with other material facts. Compare Appx. 26a, 31a; Webb
v. Lawrence Cty., 144 F.3d 1131, 1135 (8th Cir. 1998); with
Giroux v. Somerset Cty., 178 F.3d 28, 33 (1st Cir. 1999),
Bistrian v. Levi, 696 F.3d 352, 370 (3d Cir. 2012); Young
v. Quinlan, 960 F.2d 351, 362 (3d Cir. 1992); Taylor v.
Michigan Dept. of Corrections, 69 F.3d 76, 84 (6th Cir.
1995); Greene, 361 F.3d at 294–95; Weiss v. Cooley, 230
F.3d 1027, 1032 (7th Cir. 2000); Howard, 534 F.3d at 1238.
As such, the Eleventh Circuit’s opinion would not have
occurred in the majority of circuit courts.
The Eighth Circuit has misapplied Farmer by
claiming that Farmer stands for a proposition for which
it simply does not stand. See Webb, 144 F.3d at 1135. In
Webb, the plaintiff was repeatedly sexually assaulted by
a cell mate. Webb, 144 F.3d at 1135. The Eighth Circuit
stated that “[e]ven assuming for purposes of analysis that
the risk of sexual assault faced by young, physically slight

26
inmates like Webb was obvious, and thus sufficient to put
defendants on notice of its existence, Farmer v. Brennan
specifically rejects the idea that liability may be found
when a risk is so obvious that it should have been known.”
Id. (internal punctuation omitted) (quoting Jenson v.
Clarke, 73 F.3d 808, 811 (8th Cir. 1996)) (citing Farmer, 511
U.S. at 836). Federal district courts in the Eighth Circuit
have continued to apply this erroneous interpretation
of Farmer. See Jones v. Clark, No. 3:09CV00214BSM/
JJV, 2010 WL 234958, at *4 (E.D. Ark. Jan. 15, 2010).
To the complete contrary, Farmer directly states that
“a factfinder may conclude that a prison official knew of
a substantial risk from the very fact that the risk was
obvious.” Farmer, 511 U.S. at 842. The Eighth Circuit is
wrong.
At the polar opposite end of the spectrum from the
Eighth and Eleventh Circuits, the Seventh Circuit has
observed that subjective awareness of a risk may be
obvious based on a guard’s “knowledge of the victim’s
characteristics, not the assailants.” Weiss, 230 F.3d
at 1032. The Tenth Circuit has similarly stated that a
court must begin its analysis by weighing circumstantial
evidence that would inform prison officials of “obvious
risks” to the plaintiff and then consider evidence of what
the plaintiff told prison officials. Howard, 534 F.3d at
1238. Here, the Eleventh Circuit strayed from the method
utilized by the majority of circuit courts greatly, refusing
to take Green’s status as transgender into consideration
at all. The First Circuit provides a case worth briefly
discussing, as it demonstrates that, in some instances,
circumstantial evidence alone may be sufficient to show
subjective awareness of a risk, without any evidence of the
identity of the particular assailant. Giroux, 178 F.3d at 33.

27
In Giroux, a prisoner had been designated “cell feed,”
and a prison official acknowledged that of two possible
explanations for cell feed status, one was that the prisoner
was in protective custody for his own safety because he
was at risk of being harmed by another inmate. 178 F.3d
at 33. The First Circuit found there was a high probability
that the designation was intended to call attention to the
prisoner’s at-risk status. Id. Because a prison guard was
aware of the designation, a court found that this particular
factor should have been taken into consideration, thereby
justifying the denial of summary judgment that the
prison guard had subjective awareness of the risk to the
inmate. See id.; cf. Mosher v. Nelson, 589 F.3d 488, 49495 (1st Cir. 2009) (agreeing with reasoning in Giroux but
distinguishing facts where prisoner lacked characteristics
that made him particularly vulnerable to attack).
Similarly, the Third and Seventh Circuits have found
that considering factors such as being designated as an
informant or a rapist in jails, along with other material
facts, should be undertaken by courts when determining
whether guards were put on notice of an obvious risk.
Bistrian, 696 F.3d at 370 (finding in the Third Circuit that
a plaintiff alleged adequate facts after prison officials
were aware that that it was leaked to a violent criminal
gang that he was an informant); Young, 960 F.2d at 362
(holding by the Third Circuit that a prisoner’s young age
and slight appearance put him at a higher risk of sexual
assault); Weiss, 230 F.3d at 1032 (finding by the Seventh
Circuit that a guard had knowledge of a risk when the
plaintiff was an alleged rapist who was placed in general
population).

28
The Sixth and Tenth Circuits have found that prisoners
who are small and young are at an obvious risk for sexual
assault. See Taylor, 69 F.3d at 84; Howard, 534 F.3d at
1238 (holding that a prisoner who alleged he was “openly
gay,” and “slight of build” and in a prison that included
a violent prison gang provided circumstantial evidence
“that approaches the entire record in Farmer.”) In Taylor,
a prisoner was raped after he was transferred from a
single cell in a minimum-security prison to dormitory
style housing. Taylor, 69 F.3d at 78. At five feet tall and 120
pounds, the prisoner was mildly mentally impaired, had
youthful features, and suffered from a seizure disorder.
Id. at 77-78. In addition, the Sixth Circuit quoted from
a report that there was a problem of widespread sexual
assaults. Id. at 84. Based on this circumstantial evidence,
the court overturned the district court’s grant of summary
judgment and found the plaintiff stated a jury question. Id.
Finally, like in Farmer, the Sixth Circuit has found
that transgender prisoners are at an obvious risk
for sexual assault and has found prison guards liable
because of their knowledge of those risks. Greene, 361
F.3d at 294–95. In Greene, the warden was aware of the
plaintiff’s greater vulnerability to physical or sexual
assault because she was a transgender prisoner with a
feminine appearance, and the warden authorized placing
the plaintiff in protective custody for her own protection.
Id. at 294-95. This evidence, combined with evidence of
her assailant, who was placed in protective custody with
her and who had a lengthy prison misconduct record and
a reputation as a violent inmate, was sufficient to raise a
dispute of material fact and overturn the district court’s
grant of summary judgment. Id. The facts of this Sixth
Circuit case align with the facts of Petitioner’s, though the
result reached by the Eleventh Circuit differed greatly.

29
In sum, as the Tenth Circuit’s opinion in Howard
makes clear, only by giving proper weight to “background”
circumstantial evidence, such as a prisoner’s personal
characteristics, will a district court properly assess a
guard’s subjective knowledge. Howard, 534 F.3d at 1238.
By both refusing and failing to weigh specific evidence
in light of a prisoner’s acknowledged characteristic that
renders that prisoner vulnerable to a serious threat of
harm, lower courts misapply apply Farmer, by, inter
alia, setting an impossibly high evidentiary burden on
prisoners, especially those who are member of vulnerable
groups, such as transgender prisoners.
III. The majority of circuits reject requiring a plaintiff
allege a specific source of harm and form of harm
suffered
Confusion further reigns amongst the circuits with
respect to how specific a prisoner must be when identifying
a particularized threat or danger, including whether a
plaintiff is required (as the Eleventh Circuit held here)
to identify her assailant and to allege the specific form of
harm suffered.
Here, the Eleventh Circuit erroneously reasoned
that Green failed to provide Warden Hooks and Deputy
Warden Brown with sufficient “specific information” of
her assailant because she did not provide them with a
specific name. Appx. 28a. Then, in a complete spin off from
the specific-risk requirement, the Eleventh Circuit also
held that a prisoner must complain of the specific form of
harm suffered, whether sexual or physical assault. Appx.
28a. While Warden Hooks and Deputy Warden Brown
gave Green a piece of paper upon leaving the August

30
28th meeting, the court found this action showed that the
prison officials Warden Hooks were subjectively aware of
a “different potential harm—the risk of physical harm”
but not “the risk of sexual violence.” Id. In addition, the
court found that “there [was] no evidence that Lieutenant
Grubbs was aware of any threat posed by Ricard to
Green,” and again reasoned that Green failed to provide
Lt. Grubbs with sufficient “specific information” of her
assailant, though Green told Lt. Grubbs that she feared
for her life as a transgender prisoner. Appx. 31a.
The Seventh Circuit has also held that a prisoner must
complain of the specific harm suffered, whether sexual or
physical assault. See Riccardo v. Rausch, 375 F.3d 521,
526–27 (7th Cir. 2004). In Riccardo, a prisoner complained
he was in fear for his life if celled with a Latin King gang
member, but the Seventh Circuit discounted the risk and
found a prison guard did not have subjective awareness
because the risk that the prisoner professed fear for his
life did not come to pass; the prisoner was raped instead
of killed. See id. At odds with the Eleventh and Seventh
Circuits on this issue are the First, Second, Third, Sixth,
Seventh, and Tenth Circuits, which have refused to
require prisoners to identify a specific source (or form) of
harm in order to prevail at summary judgment.
For example, rejecting that a prisoner must identify
a specific source of harm, the Sixth Circuit has said: “[N]
othing in Farmer suggests that [the prisoner’s] claim must
fail because he cannot identify the person who stabbed
him.” Williams v. McLemore, 247 Fed.Appx. 1, 13 (6th
Cir. 2007); see also Woods v. Lecureux, 110 F.3d 1215
(6th Cir. 1997) (finding warnings from prisoner himself
are not required to establish deliberate indifference

31
when other evidence discloses substantial risk of serious
harm); Greene, 361 F.3d 290. In Howard, the Tenth Circuit
expressed the same point: “Regardless of how prison
officials become subjectively aware of a substantial risk of
serious harm to an inmate—and indeed, even in situations
where the prisoner himself remains oblivious to the
potential harm—the Eighth Amendment requires them
to respond reasonably.” Howard, 534 F.3d at 1237; see also
Hayes v. N.Y. City Dept. of Corr., 84 F.3d 614, 621 (2d Cir.
1996) (holding that though a prisoner’s identification of
his enemies is relevant, it is not outcome determinative to
permit a finding of deliberate indifference); Bistrian, 696
F.3d at 370 (finding officials were aware of risk of danger
when a violent gang knew of informant’s cooperation,
despite officials not knowing which specific gang member
posed a danger).
Rejecting that a prisoner must complain of the specific
form of harm suffered (as opposed to source of harm
suffered), the First Circuit stated that “knowledge may
be averred generally” and did not require a prisoner
to complain of the specific form of assault he suffered.
Calderon-Ortiz v. Laboy-Alvarado, 300 F.3d 60, 64 (1st
Cir. 2002). The prisoner’s allegation that custodial staff
failed to provide oversight sufficed even though the
prisoner suffered a sexual assault. Id. Likewise, in Smith
v. Brenoettsy, 158 F.3d 908, 912 (5th Cir. 1998), the Fifth
Circuit opined: “While a prisoner normally must complain
about a specific threat to a supervisory official in order
to give actual notice to that official, we have never held
that a supervisory official be warned of the precise act
that the subordinate official subsequently commits.” The
Sixth Circuit concluded in another inmate on inmate
assault case that “actual knowledge does not require that

32
a prison official know … that a particular prisoner would
be harmed in a certain way.” Curry v. Scott, 249 F.3d 493,
507 (6th Cir. 2001).
As many circuits have noted, a specific-risk requirement
is inconsistent with this Court’s precedent under Farmer
when, as here, there was other circumstantial evidence,
such as Green’s letter to her mother and her transgender
status, inter alia, sufficient to put Warden Hooks and
Deputy Warden Brown on notice, even if they did not know
the specific form (or source) of potential harm. See e.g.,
Velez v. Johnson, 395 F.3d 732, 736 (7th Cir. 2005) (noting
that whether a prisoner’s complaint to a guard is vague
as to the details of a threat of harm is inconsequential if
the complaint can also be substantiated by circumstantial
evidence).
In sum, the majority of circuits reject placing a
heightened evidentiary burden on prisoners to identify the
specific source of harm for a prison official to be on notice;
the Eleventh Circuit’s steadfast specific-risk requirement
to the exclusion of other evidence was erroneous.
IV. The Eleventh Circuit erroneously applied a preFarmer specific risk requirement
A further problem and danger of the Eleventh
Circuit opinion is that it consciously adopted overturned
precedent. Despite Farmer’s adoption of an actual
knowledge requirement, Farmer rejected an even stricter
standard that prison guards have a “specific known risk of
harm,” which was the pre-Farmer standard in the Fourth
and Sixth Circuits. Price v. Sasser, 65 F.3d 342, 346 (4th
Cir. 1995) (discussing pre-Farmer caselaw in the Fourth

33
Circuit); Marsh v. Arn, 937 F.2d 1056, 1061–62 (6th Cir.
1991). In Ruefly v. Landon, 825 F.2d 792 (4th Cir. 1987), the
Fourth Circuit held that deliberate indifference required
showing that prison officials knew of a “specific risk of
harm” to a specific prisoner. The plaintiff brought suit
after he was assaulted by his cell mate, Lowe, an inmate
who prison officials knew to be dangerous and violent.
Id. at 794. Lowe had previously fought twice with other
inmates, made remarks that he would kill one inmate,
assaulted his wife during a prison visit, and was sent to
a psychiatric facility for his unstable behavior. Id. But
under the specific-risk requirement, the officials were not
liable for assigning Lowe to share a cell with the plaintiff
when Lowe had not made threats specifically against the
plaintiff. Id.
Farmer eased the Fourth and Sixth Circuits’ specificrisk requirement by holding that prison officials could not
escape liability merely by showing that they did not know
that a specific inmate posed a risk to the specific plaintiff.
See Wilson v. Wright, 998 F. Supp. 650, 657 (E.D. Va. 1998);
Street v. Corrections. Corp. of Am., 102 F.3d 810, 815 (6th
Cir. 1996) (“To the extent that Marsh required a showing
of “specific risk,” it is inconsistent with Farmer.”).
Here, the Eleventh Circuit erroneously applied the
pre-Farmer specific-risk requirement in its analysis of
Green’s placement in protective custody. The court found
that Green failed to provide Warden Hooks and Deputy
Warden Brown with sufficient “specific information.”
Appx. 28a. Nor was Lt. Grubbs “aware of any threat
posed by Ricard to Green.” Appx. 31a. Pointing to a
specific risk of harm is one way an Eighth Amendment
plaintiff may demonstrate that he was at substantial risk

34
of serious harm, but the plaintiff cannot be required to
show that he was subject to a specific risk of harm. Street,
102 F.3d at 815 n.12. By refusing to give any weight to
Green’s transgender status, by refusing to consider other
circumstantial evidence that that prison officials knew of
the risk to Green, and by requiring the plaintiff to point to
a specific risk of harm from a specific inmate, the Eleventh
Circuit erroneously applied the pre-Farmer specific-risk
requirement. See Appx. 28a, 31a.
CONCLUSION
Other commentators have called for clarification of
how Farmer v. Brennan should be applied at summary
judgment. In a dissent last year, Judge Rosenbaum said,
“[w]e do not sentence people to be stabbed and beaten.
But we might as well, if the Majority Opinion is correct.”
Marbury, 936 F.3d at 1238 (Rosenbaum, J., dissenting).
Hon J. Rosenbaum further and correctly stated, “[t]
he Eighth Amendment does not allow prisons to be
modern-day settings for Lord of the Flies. When a prison
official knows of a substantial threat of serious harm
to an inmate, she must undertake reasonable action to
protect that inmate.” Id. at 1252. Similarly, in a dissent
to a denial of en banc review of Riccardo, Judge Ripple
of the Seventh Circuit sharply criticized the opinion’s
holding that a prisoner was required to state the specific
source of a threat: “Today, the court …. imposes on
prison inmates a new and impossibly high standard of
proof for establishing deliberate indifference in prison
condition cases.” Riccardo, 375 F.3d at 533 (Ripple, J.,
dissenting). Professor Erwin Chemerinsky has also called
on this Court to clarify how Farmer v. Brennan should
be implemented: “This is an issue that affects lawsuits

35
by prisoners, and ultimately the treatment of prisoners,
everywhere in the country.” Petition for Writ of Certiorari
in Riccardo v. Rausch, 375 F.3d 521 (7th Cir. 2004) cert.
denied, 544 U.S. 904 (U.S. Mar. 7, 2005) (No. 04-510). For
the above reasons, a writ of certiorari should issue to
review the judgment and opinion of the Court of Appeals
for the Eleventh Circuit.
Respectfully submitted,
Julie Oinonen
Williams Oinonen LLC
44 Broad Street, NW,
Suite 200
Atlanta, Georgia 30303
(404) 654-0288

Mario B. Williams
Counsel of Record
Williams Oinonen LLC
NDH LLC
44 Broad Street, NW,
Suite 200
Atlanta, Georgia 30303
John M. Shoreman
(404) 254-0442
McFadden & Shoreman
mario@goodgeorgialawyer.com
1050 Connecticut Avenue, NW, mwilliams@ndh-law.com
Suite 500
Washington, DC 20036
(202) 772-3188
Counsel for Petitioner
June 4, 2020

APPENDIX

1a
APPENDIX A — Appendix
OPINIONAOF THE UNITED
STATES COURT OF APPEALS FOR THE
ELEVENTH CIRCUIT, FILED JANUARY 6, 2020
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 17-11785
D.C. Docket No. 6:14-cv-00046-JRH-GRS.
DARIUS ISHUN GREEN,
Plaintiff-Appellant,
versus
WARDEN BRAD HOOKS, DEPUTY WARDEN
JOHN BROWN, LIEUTENANT TORIE GRUBBS,
GEORGIA DEPARTMENT OF CORRECTIONS,
Defendants-Appellees.
Appeal from the United States District Court
for the Southern District of Georgia.
January 6, 2020, Decided
Before ROSENBAUM, BRANCH, and TJOFLAT, Circuit
Judges.
BRANCH, Circuit Judge:

2a
Appendix A
After being sexually assaulted by a fellow inmate
at Rodgers State Prison, Darius Green brought suit
under 42 U.S.C. § 1983, against Georgia Department of
Corrections (“GDC”) employees Warden Bradley Hooks,
Deputy Warden of Security John Brown, and Lieutenant
Torie Grubbs (collectively, “the prison officials”). First,
Green asserted that the prison officials were deliberately
indifferent to the risk of harm against Green, in violation
of the Eighth Amendment. Second, under a theory of
supervisory liability, Green alleged that the prison officials
proximately caused Green’s injuries.1
The prison officials filed a motion for summary
judgment, arguing that they did not violate the Constitution
and that they were nevertheless immune from suit because
they are entitled to qualified immunity. The district court
granted summary judgment in favor of the prison officials,
finding that no constitutional violation had occurred. The
district court also dismissed Green’s supervisory liability
claims. Alternatively, the district court found that the
prison officials were entitled to qualified immunity. Green
appealed.
After careful review of the record and with the benefit
of oral argument, we affirm the district court’s grant of
summary judgment in favor of the prison officials.

1. Green also initially brought a conspiracy claim against
Lieutenant Grubbs, but later abandoned it.

3a
Appendix A
I.

BACKGROUND
1.

Facts

Darius Green is transgender. 2 Born biologically male,
Green identifies with the female gender. Green has been
taking hormone replacement therapy since age 17, has
breasts, and maintains a feminine appearance. 3
On May 10, 2012, Green formally entered the GDC
through a standard intake procedure performed at the
Georgia Diagnostic and Classification Prison (“GDCP”).
Here, inmates undergo housing and classification prior
to their placement in the Georgia prison system. The
process takes into account the inmate’s criminal history;
individual characteristics; and treatment needs, including
an inmate’s medical and mental health needs. The intake
process also provides an initial security classification,
which is a comprehensive measure of risk that impacts
an inmate’s housing assignment, levels of supervision,
2. Because Green’s counsel, counsel for DefendantsAppellants, and the district court have exclusively used the
feminine pronoun to refer to Green, for clarity, we will also do so.
3. However, when entering the GDC on May 10, 2012, Green
was not taking hormone replacement therapy (“HRT”). In fact,
Green had not been taking HRT for approximately eight months
prior to arrival at the GDC and did not receive HRT until after
transfer to Rodgers State Prison. Because Green did not arrive
at Rodgers State Prison until July 2012, it appears that Green
was not on HRT for approximately 11 months prior to arriving
at Rodgers.

4a
Appendix A
and work detail assignment. 4 Green’s intake resulted
in a minimum-security classification and a finding that
Green was fit for housing in the general population of
male prisoners.
GDCP also screens inmates in accordance with the
Prison Rape Elimination Act (“PREA”), 28 C.F.R. § 115
et seq., to determine if they are at risk of being either a
sexual victim or a sexual aggressor. PREA screening
considers a variety of relevant factors, including whether
an inmate has a disability; an inmate’s age, physical
build, incarceration history, criminal history, and prior
experiences of sexual victimization; an inmate’s actual
and/or perceived sexual orientation and gender identity;
and the inmate’s own perception of vulnerability. See
generally id. § 115.41(d). When assessing inmates for risk
of being sexually abusive to others, PREA screening also
considers “prior acts of sexual abuse, prior convictions for
violent offenses, and history of prior institutional violence
or sexual abuse, as known to the agency.” Id. § 115.41(e).
Green was not designated as a PREA victim or as a PREA
aggressor. Green also received institutional orientation,
including PREA orientation, and was informed about how
to make a report of sexual assault.
On July 19, 2012, Green was transferred to Rodgers
State Prison (“Rodgers”). Rodgers is a medium-security
facility for male felons and houses approximately 1,500
4. Factors include: severity of the current offense, severity
of prior offenses, history of escape, history of institutional
violence, along with any information regarding gang affiliation
and activities.

5a
Appendix A
inmates in six buildings (Buildings A through H). Green,
at all times relevant to this case, was placed in Building
A, which was comprised of four dormitories (A1, A2, A3,
and A4). A1 was a general population dormitory, while A3
and A4 were used for Administrative Segregation housing.
A1 housed inmates that were generally well-behaved,
and all inmates were cleared to live with each inmate in
the dormitory. Although there were inmates with different
security classifications in A1, both medium and minimum
security inmates are deemed capable of abiding by rules
and regulations of the prison. 5 Inmates of differing
security levels are routinely housed together, and this
practice is not prohibited by PREA.
A1 was made up of two halls with two bedrooms per
hall; each bedroom contained eight bunkbeds, housing
a total of sixteen inmates per bedroom. A1 also had a
television room and day room. The open format of A1
allowed for free roaming throughout the bedrooms, and
prison security officers were not continuously present
in the dormitory. Every day, officers conducted multiple
“official counts” of inmates, entered A1 to deliver mail,
conducted “census counts,” and monitored the hallways
and common areas via the A-dormitory control room.
Although the rooms in A1 had locks, the rooms were not
locked during lights-out.
In contrast, Administrative Segregation units A3 and
A4 were comprised of single- and double-occupancy rooms.
5. Green had a minimum-security classification and her
assailant, Darryl Ricard, had a medium classification.

6a
Appendix A
Inmates in Administrative Segregation were housed
there for a variety of reasons: disciplinary purposes,
pending investigation, pending protective custody review,
protective custody, medical observation, and pending
initial institutional classification. Prison policy required
A3 and A4 security officers to perform security and safety
checks every thirty minutes.
Upon arriving at Rodgers, Green was subjected to
a strip search and was required to strip in front of the
guards and other inmates who were being processed at the
same time, which exposed her breasts to the individuals in
the room. After processing at Rodgers, Green was placed
in Administrative Segregation in A4 because of a bed
shortage in general population. Green’s institutional status
at that time was designated as “pending reassignment,”
which is the status typically given when there is not enough
bed space and an inmate is awaiting return to general
population. Although Green’s placement in A4 should
have generated an initial assignment memorandum, this
memorandum is missing.
After four days in Administrative Segregation, Green
was transferred to A1 to be housed with the general
population. The A1 unit generally housed inmates who
were not considered to be problem inmates.
On Green’s first day in A1, inmate Darryl Ricard
approached Green to offer protection. Ricard identified
himself as one of the nation’s highest-ranking members
of the Vice Lord gang. Ricard was serving a life sentence
w ithout parole for agg ravated child molestation,
aggravated assault, rape, and kidnapping of a child in

7a
Appendix A
retaliation for her father’s unpaid debts. Ricard’s security
classification was medium, and he was deemed appropriate
for general population housing. Despite his rape and
molestation convictions, Ricard’s PREA screening did not
designate him as a PREA victim or a PREA aggressor.6
Ricard told Green he was looking for a friend,
and Green acquiesced. It is undisputed that the initial
encounter and proffered arrangement was unthreatening
and non-coercive. However, within the next two weeks,
Ricard demanded Green perform oral sex upon him.
Green initially resisted, but Ricard threatened Green
with prison weapons,7 physically assaulted Green in the
bathroom, and threatened further bodily harm if Green
refused to perform the demanded sexual acts. Ricard also
threatened to have Green harmed if Green transferred to
another dormitory. Green’s testimony indicates that she
relented to Ricard’s demands out of fear. Ricard disputes
Green’s testimony, and claims that he was Green’s prison
“husband,” all sexual acts were consensual, and that Green
admitted to Ricard she was setting him up so she could
fabricate a lawsuit against Rodgers.
On August 24, 2012, Green sent the following letter to
her mother, Lisa Weaver (reproduced as written):
Hello
6. Under PREA, a sexual abuse act or prior rape conviction
does not automatically result in an inmate being labeled a “sexual
aggressor.”
7. Green said Ricard “went berserk” and “went in his room,
and brought a shank [a homemade knife] and a belt with a lock on
it” to threaten Green.

8a
Appendix A
Mother, how are you? I am writing you now on
an emergency basis I am in big need of help and
it is life or death at this current time my life —
is in great danger, listen I need for you to get
me the address to the Dept of Correction, the
address to the Commissoner the directors of
the GA Department of Corrections something
somebody I can write to get me an immediate
transfer. I have to get transfered from this
camp mother ASAP I don’t want to go to the
hole or P.C. unless it is absolutely necessary I
have control of the situation for now but once
I dont I might be seriously hurt or killed I am
very scared but I am playing my part This is
VERY Important I need those addresses ASAP
I will explain the situation later
Love you poohbear
Upon receiving this letter, Green’s mother called Warden
Bradley Hooks and informed him of the letter. On the
same day—August 28, 2012—Warden Hooks had Green
escorted to his office for a meeting. Deputy Warden John
Brown was also in attendance. Although some specifics
from that meeting are disputed, 8 it is undisputed that
Green:
8. Warden Hooks testified that he asked Green whether she
was in any danger or wanted protective custody, but Green denies
that Warden Hooks specifically asked about protective custody.
Although this fact is disputed, it is not material to our inquiry,
given the plethora of undisputed facts supporting Warden Hooks’s
inquiry into Green’s safety.

9a
Appendix A
• Told Warden Hooks and Deputy Warden Brown
that she “was okay”
• Never said she was in danger
• Never disclosed that she was being sexually
assaulted
• Never disclosed that she was being sexually
harassed
• Never mentioned Darryl Ricard’s name
• Never admitted to being uncomfortable in A1
• Never asked to be moved to a different building
• Never asked to be moved to a different camp
• Never asked to be moved into protective custody
Furthermore, Green admits to telling Warden Hooks,
“I was okay[,] because I did not want to alarm him into
investigating or making me have to tell him exactly what
was going on.”
In response to Green’s statements that everything
was “okay,” Warden Hooks replied, “Well, I don’t believe
you. Your mother’s calling saying this and that.” Warden
Hooks then called Green’s mother directly and gave Green
the opportunity to speak to her on the phone. Warden
Hooks also spoke with Green’s mother, relaying Green’s
statements that Green was okay and that there were no
problems.

10a
Appendix A
Green later said these denials stemmed from being
scared, as Ricard had repeatedly threatened serious harm
to Green if she resisted.9 However, Green also testified
that she would never have disclosed the information to
officials—even if her mother had provided the requested
addresses of GDC officials, stating: “I never would have
told them what was going on. I just wanted to write
them to see if they could help me without having to tell
on [Ricard] or tell what was going on so that I wouldn’t
receive any retaliation from him because I was hoping
that they would be able to help me without having to tell
them what was going on.”
After the phone call, Warden Hooks gave Green a
piece of paper to take with her so other inmates would
not be suspicious of Green’s meeting with the Warden.
Following the meeting with Warden Hooks and
Deputy Warden Brown, Green allegedly wrote a letter to
Warden Hooks in early-to-mid-September 2012, raising
general grievances with the prison’s building design. In
this letter, Green did not mention Ricard or the sexual
acts Ricard was forcing Green to perform. Instead Green
lodged a more general complaint that Rodgers was not
conducive to transgender inmates. Specifically, Green
identified the open showers, open dormitory, toilets
without locks, and A1’s general policy of not locking
9. During Green’s Incident Report interview, made following
Ricard’s assault of Green on September 22, 2012, Green detailed
the threats and said Ricard had threatened to “find people” who
could hurt Green if Green moved buildings or to beat Green so
badly she would have to be “put [] on a life flight.”

11a
Appendix A
doors as being inappropriate for transgender inmates. In
this letter, Green asked to be transferred. Green wrote
the letter, placed it in an envelope addressed to Warden
Hooks, and placed it in the prison mailbox. Warden Hooks
denied receiving or reading the letter.
Later that month, on September 17, 2012, Green
allegedly wrote another letter, this time to Deputy
Warden Brown. The letter identified Ricard as Green’s
abuser and asked Deputy Warden Brown to handle the
matter confidentially. In this letter, Green told Deputy
Warden Brown that Ricard was forcing Green to perform
oral sex on him. Green placed the letter in an envelope,
wrote “confidential, urgent — urgent confidential
correspondence” on the outside, addressed it to “deputy
warden of security,” and placed it in the prison mailbox.
Deputy Warden Brown denied ever receiving or reading
the letter.
On September 20, 2012, three days after Green wrote
the letter to Deputy Warden Brown, Green and two other
inmates were forced to exit A1. In prison jargon, Green
and the others were “put on the door,” a phrase that refers
to being expelled from the dormitory by the other inmates
in the dormitory and being forced to stand on the outside
of the dormitory door. According to Green, the three
inmates were “put on the door” because the inmates of
A1 were tired of having openly homosexual inmates in
the dormitory. Green was relieved to be leaving A1 and
viewed this occurrence as a chance to escape Ricard. But,
upon hearing that Green and the two other inmates were
being “put on the door,” Ricard joined them on the door in

12a
Appendix A
solidarity. Together, the four inmates exited the dormitory
and waited near the control room of the A Building.
Lieutenant Torie Grubbs received a report that
several inmates had been “put on the door” and went
to retrieve them. The inmates requested protective
custody, telling Lieutenant Grubbs that they had been
asked to leave. Green told Lieutenant Grubbs that she
feared for her life as a transgender inmate, and Ricard
told Lieutenant Grubbs that he feared for his life because
he stood up for the homosexual inmates. Upon hearing
this, Lieutenant Grubbs escorted the exiled inmates to
Administrative Segregation and placed all four inmates
on “protective custody review” status.10 The only contact
Lieutenant Grubbs had with the inmates who were “on
the door” was when Grubbs escorted them from the door
of A1 to the Administrative Segregation area. Lieutenant
Grubbs told another officer to place the inmates in
Administration Segregation cells but did not make the
cell assignments. A different officer escorted the inmates
into the Administrative Segregation building.
Another officer (not Lieutenant Grubbs) then escorted
Green to the shower room of the A4 dormitory, while a
different officer (also not Grubbs) escorted Ricard to a cell
in the A3 dormitory. Ricard was placed in Cell 22, Bed 44
in the A3 dormitory, which was a double-occupancy room.
10. This status is given to inmates awaiting an assignment to
protective custody. Inmates seeking voluntary protective custody
are asked to identify a specific threat justifying protective custody
placement. A Classification Committee then reviews an inmate’s
request for voluntary protective custody and determines which
placement is appropriate.

13a
Appendix A
From 11:00 p.m. on September 20, 2012, until 4:00
a.m. the following morning, Green waited in the shower
room of A4 dormitory. During this time, Green made no
mention of Ricard at all, but instead wrote a statement
outlining the experience of being “put on the door” and
noting that “now A building is putting open homosexual/
trans-gender inmates on the door only F building is
allowing open homosexual on the door for now. This camp
openly discriminate against open homosexual and they
dont want us here.” While in the shower room, Green
acknowledges that she made small talk with officers, but
did not mention Ricard or that Green was being sexually
assaulted, harassed, or otherwise threatened.
At approximately 4:00 a.m. on September 21, 2012,
Green was escorted by an unknown officer (who was not
Warden Hooks, Deputy Warden Brown, or Lieutenant
Grubbs) to Cell 22, Bed 43 in the A3 dormitory. Ricard
was already in the cell, which Green noticed when walking
into the cell—but only after the officer had shut the door.
Ricard allegedly told Green that he had gotten Lieutenant
Grubbs to place Green in the cell with him.11 Ricard
11. Lieutenant Grubbs denied the allegation that Ricard had
orchestrated Green’s placement in Cell 22, and Ricard denied it
as well. Ricard admitted that he may have asked to be placed in
the cell with Green, but also noted that Rodgers officials would
have “had no reason not to. I mean, we wasn’t beefing or anything.
They don’t just—the only times these people—the Administration
pays attention to who they place in a cell is if me and this guy right
here just got into a big ass fight. . . . And that’s the only reason
that they would keep parties separated unless a PREA was, of
course involved. Other than that, why would they separate us?”

14a
Appendix A
attempted to talk to Green, but Green demurred and went
to sleep. Green then slept, undisturbed, for several hours.
While Green slumbered, Warden Hooks reviewed
the Assignment Memos requesting voluntary protective
custody for Green and Ricard. The matter was sent to the
Classification Committee for review and recommendation.
That same day, September 21, 2012, the Classification
Committee recommended that both inmates be returned
to general population. Warden Hooks approved the
recommendations of the Classification Committee, but
Ricard and Green were not moved immediately because
that day was not a day when routine inmate housing moves
were typically made.
Upon awakening on September 21, 2012, Green told
Ricard, “I don’t want to be around you anymore, you know,
because, you know, I can’t deal with all the threats and all
of the stuff that’s going on.” Ricard became distressed and
agitated, and grabbed a razor blade. Ricard told Green
he was tired of Green playing games with him. Ricard
threatened Green with the razor blade, saying he would
cut up Green’s face. Against Green’s will, Ricard then
orally and anally sodomized Green. This assault occurred
around midnight or 1 a.m. on September 22, 2012.
After the attack, Green secretly wrote a letter
pleading for help. The letter stated “I’m being forced to
have sex.” About thirty to sixty minutes after the assault,
Green was able to slip the letter out through the cell door
when Ricard was not looking. Soon after the letter was
slipped through the door, an officer took the letter, opened

15a
Appendix A
the cell flap, and asked who wrote the letter. The officer
then left. Approximately two minutes later, a sergeant
arrived at the cell to find Ricard chasing Green around the
cell with a razor blade. After the sergeant threatened to
pepper-spray Ricard through the cell flap, Ricard dropped
the razor blade and was escorted out of the cell.
In response to Green’s allegation of sexual assault,
the prison’s Sexual Assault Response Team conducted
an investigation. This investigation began almost
immediately (mere hours after the assault occurred), and
Green’s interview with an Internal Affairs Investigator
took place at 12:30 p.m. on September 22, 2012. The
investigation substantiated Green’s allegations of sexual
assault.
Warden Hooks then referred the investigation to
the GDC Internal Affairs Investigation unit, and a full
investigation was conducted. Afterward, the Tattnall
County District Attorney presented the case to two
separate grand juries, in an attempt to indict Ricard. Both
grand juries refused to indict.
2.

Procedural History

In May 2014, Green filed suit in federal court under
42 U.S.C. § 1983 alleging that Warden Hooks, Deputy
Warden Brown, and Lieutenant Grubbs were deliberately
indifferent to Green’s safety, in violation of Green’s rights
under the Eighth and Fourteenth Amendments. Green
also sued other prison employees in Green v. Calhoun
(“Green II”). The two cases were consolidated. Following

16a
Appendix A
discovery and by stipulation, certain defendants (including
all Green II defendants) and other claims (including
the conspiracy claim against Lieutenant Grubbs) were
dismissed.
Two claims against Warden Hooks, Deputy Warden
Brown, and Lieutenant Grubbs survived dismissal:
(1) Defendants violated Green’s Eighth and Fourteenth
Amendment rights to be free from cruel and unusual
punishment, and (2) Defendants are liable under the
theory of supervisory liability.12
The district court granted summary judgment in favor
of Warden Hooks, Deputy Warden Brown, and Lieutenant
Grubbs, holding that the Defendants did not violate any
constitutional rights. The court also found that Defendants
were entitled to qualified immunity. Green’s supervisoryliability claims similarly failed because Defendants did
not violate Green’s constitutional rights.
II. STANDARD OF REVIEW
We review de novo a district court’s grant of summary
judgment, “viewing the facts and drawing all reasonable
12. Green’s complaint articulates the claims as follows: prison
officials violated Green’s constitutional rights by “condoning and
promoting unsafe prison conditions known to place transgender
Green in substantial risk of physical injury; by showing deliberate
indifference to actual physical injuries Defendants knew Green had
suffered and thereby creating an environment that led to her actually
being anally raped; and by showing deliberate indifference to Green
being placed in a ‘protective-custody’ cell with an inmate Defendants
(at the very least Grubbs . . . ) knew was Green’s sexual assailant.”

17a
Appendix A
inferences in the light most favorable to . . . the nonmoving
party.” Goodman v. Kimbrough, 718 F.3d 1325, 1331
(11th Cir. 2013) (citing Liese v. Indian River Cty. Hosp.
Dist., 701 F.3d 334, 341-42 (11th Cir. 2012)). In doing so,
we determine “whether, viewing the record as it existed
before the district court in the light most favorable
to [Green], a genuine issue of material fact existed as
to whether [the prison officials’] actions constituted
deliberate indifference” to Green. Steele v. Shah, 87 F.3d
1266, 1269 (11th Cir. 1996).13
“Where the evidence is circumstantial, a court may
grant summary judgment when it concludes that no
reasonable jury may infer from the assumed facts the
conclusion upon which the non-movant’s claim rests.”
Mize v. Jefferson City Bd. of Educ., 93 F.3d 739, 743
(11th Cir. 1996). “[M]ere conclusions and unsupported
13. We “pause to emphasize attorneys’ obligations under
Federal Rule of Appellate Procedure 28 generally and in the
specific context of a qualified immunity appeal.” Johnson v. City
of Fort Lauderdale, Fla., 126 F.3d 1372, 1373 (11th Cir. 1997).
Appellants must submit a brief containing “a concise statement
of the case setting out the facts relevant to the issues submitted
for review . . . with appropriate references to the record.” See Fed.
R. App. P. 28(a)(6). These requirements are particularly pertinent
in a qualified immunity appeal where the plaintiff is required
to “carefully set out the facts which, if proven, would constitute
violations of clearly established law on the part of each defendant.”
Johnson, 126 F.3d at 1373.
Unfortunately, as was the case in the district court, Green has
“made exceedingly difficult this Court’s task of determining what
material facts are in genuine dispute.” On appeal, Green continues
to “repeatedly mystif[y] the facts, confuse[] the timeline of the
events, and make[] multiple unsupported assertions.”

18a
Appendix A
factual allegations are legally insufficient to defeat a
summary judgment motion.” Ellis v. England, 432 F.3d
1321, 1326 (11th Cir. 2005). We will affirm the district
court’s grant of summary judgment “if we conclude that
there is no genuine issue of material fact—that is, if no
‘fair-minded jury could return a verdict for the plaintiff
on the evidence presented.’” Goodman, 718 F.3d at 1331
(quoting Anderson v. Liberty Lobby, Inc., 477 U.S. 242,
252, 106 S. Ct. 2505, 91 L. Ed. 2d 202 (1986)).
We now turn to the issues raised on appeal. We
consider whether Warden Hooks, Deputy Warden Brown,
or Lieutenant Grubbs violated Green’s Eighth and
Fourteenth Amendment rights to be free from cruel and
unusual punishment, and whether they are liable under
the theory of supervisory liability.
For the reasons that follow, we affirm the district
court’s grant of summary judgment in favor of the prison
officials.
III. E I G H T H A M E N D M E N T D E L I B E R A T E
INDIFFERENCE CLAIM
Green’s constitutional claim centers around the
Eighth Amendment’s prohibition of “cruel and unusual
punishment.”14 In particular, Green alleges that Warden
14. The Eighth Amendment applies to convicted inmates,
while a pretrial detainee’s constitutional rights arise from the Due
Process Clause of the Fourteenth Amendment. See Purcell ex rel.
Estate of Morgan v. Toombs Cty., 400 F.3d 1313, 1318 n.13 (11th Cir.
2005). Thus, only Green’s Eighth Amendment right is at issue here.

19a
Appendix A
Hooks, Deputy Warden Brown, and Lieutenant Grubbs
knowingly ignored the substantial risk of danger to Green
as a transgender inmate, thus subjecting Green to cruel
and unusual punishment by allowing Green to be sexually
assaulted by Ricard while in prison.
The Eighth Amendment prohibits the infliction of
“cruel and unusual punishments.” U.S. Const. amend.
VIII. See Purcell ex rel. Estate of Morgan v. Toombs
Cty., Ga., 400 F.3d 1313, 1319 (11th Cir. 2005). It is well
settled that “the treatment a prisoner receives in prison
and the conditions under which he is confined are subject
to scrutiny under the Eighth Amendment.” Farmer v.
Brennan, 511 U.S. 825, 832, 114 S. Ct. 1970, 128 L. Ed.
2d 811 (1994) (quoting Helling v. McKinney, 509 U.S. 25,
31, 113 S. Ct. 2475, 125 L. Ed. 2d 22 (1993)). Although
prison officials have a duty to protect a prisoner from
violence by other prisoners, not “every injury suffered
by one prisoner at the hands of another translates into
constitutional liability for prison officials responsible for
the victim’s safety.” Id. at 834. “Rather, a prison official
violates the Eighth Amendment [in the context of a failure
to prevent harm] only ‘when a substantial risk of serious
harm, of which the official is subjectively aware, exists
and the official does not respond reasonably to the risk.’”
Bowen v. Warden Baldwin State Prison, 826 F.3d 1312,
1320 (11th Cir. 2016) (quoting Caldwell v. Warden, FCI
Talladega, 748 F.3d 1090, 1099 (11th Cir. 2014)); Marsh v.
Butler County, Ala., 268 F.3d 1014, 1028 (11th Cir. 2001)
Regardless, “the standards under the Fourteenth Amendment are
identical to those under the Eighth.” Goebert v. Lee Cty., 510 F.3d
1312, 1326 (11th Cir. 2007).

20a
Appendix A
(en banc) (“[a] prison official’s deliberate indifference to
a known, substantial risk of serious harm to an inmate
violates the Eighth Amendment.” (emphasis added)),
abrogated on other grounds by Bell Atl. Corp. v. Twombly,
550 U.S. 544, 561-63, 127 S. Ct. 1955, 167 L. Ed. 2d 929
(2007)).
Thus, in order to survive summary judgment on
her § 1983 deliberate-indifference claim, Green must
“produce sufficient evidence of (1) a substantial risk of
serious harm; (2) the defendants’ deliberate indifference
to that risk; and (3) causation.” Hale v. Tallapoosa Cty.,
50 F.3d 1579, 1582 (11th Cir. 1995) (citation omitted).
“[D]eliberate indifference has three components: (1)
subjective knowledge of a risk of serious harm; (2)
disregard of that risk; (3) by conduct that is more than
mere negligence.” McElligott v. Foley, 182 F.3d 1248,
1255 (11th Cir. 1999). Accordingly, Green must show that
an objectively serious risk of harm existed and that the
prison officials were subjectively aware of this risk of
harm. Farmer, 511 U.S. at 834. Subjective awareness
requires that the prison officials “both be aware of facts
from which the inference could be drawn that a substantial
risk of serious harm exist[ed], and [they] must also draw
the inference.” Id. at 837. Under the Eighth Amendment,
“an official’s failure to alleviate a significant risk that he
should have perceived but did not . . . cannot under our
cases be condemned as the infliction of punishment.”
Id. at 838 (emphasis added). In short, we will not find a
prison official liable under the Eighth Amendment “unless
the official knows of and disregards an excessive risk to
inmate health or safety; the official must both be aware

21a
Appendix A
of facts from which the inference could be drawn that a
substantial risk of serious harm exists, and [they] must
also draw the inference.’” Goodman, 718 F.3d at 1332
(quoting Purcell, 400 F.3d at 1319-20).
Even if Green’s Eighth Amendment claim survives
summary judgment, the prison officials argue that
they are nevertheless entitled to qualified immunity.
Qualified immunity protects government officials15 like
Warden Hooks, Deputy Warden Brown, and Lieutenant
Grubbs “from liability for civil damages insofar as their
conduct does not violate clearly established statutory or
constitutional rights of which a reasonable person would
have known.” Morris v. Town of Lexington, 748 F.3d 1316,
1321 (11th Cir. 2014) (quoting Pearson v. Callahan, 555
U.S. 223, 231, 129 S. Ct. 808, 172 L. Ed. 2d 565 (2009)).
Green’s Eighth Amendment arguments can be
summarized as follows. First, the prison officials were
subjectively aware of the substantial risk to Green’s safety
as a transgender inmate placed in a general population
dormitory. Second, Warden Hooks and Deputy Warden
Brown were aware of and disregarded the threats to
15. For qualified immunity to apply, the government officials
must be “acting within the scope of [their] discretionary authority
when the allegedly wrongful acts occurred.’” Lee v. Ferraro, 284
F.3d 1188, 1194 (11th Cir. 2002) (quoting Courson v. McMillian,
939 F.2d 1479, 1487 (11th Cir. 1991)). In this case, it is undisputed
that the prison officials were acting within the scope of their
discretionary authority, so the only question is whether “the
official’s alleged conduct violated a constitutional right, and [if]
the constitutional right at issue was clearly established.” Id.

22a
Appendix A
Green’s safety that she identified in the letters Green
sent to her mother, Warden Hooks, and Deputy Warden
Brown. Third, Lieutenant Grubbs was aware of the threat
Ricard posed to Green’s safety and acted with deliberate
indifference by placing Green in a cell with Ricard. Lastly,
the prison officials were aware of the general threat
to Green’s safety posed by unsafe prison conditions at
Rodgers. Green argues that, because the prison officials
knew of and disregarded these various risks to her safety,
the prison officials violated the Eighth Amendment. We
address each of Green’s arguments in turn.
1.

Green’s Placement in General Population

Green alleges that the prison officials were deliberately
indifferent when they placed Green in a general population
dormitory, despite knowing that Green was transgender
and initially sending her to Administrative Segregation
when she arrived at Rodgers. In support, she argues that
her initial assignment in Administrative Segregation
demonstrated the prison officials’ subjective knowledge
of the risk posed by the general population dormitory to
Green as a transgender inmate.
While it is undisputed that Green was initially sent
to Administrative Segregation upon arrival at Rodgers,
the only material evidence in the record demonstrates
her placement there was due to a bed shortage, not
because of a safety risk. The prison officials testified
about the Rodgers intake process and the bed shortage
at the time Green arrived at Rodgers, which resulted in
her temporary placement in Administrative Segregation.

23a
Appendix A
Furthermore, Green admitted to a GDC investigator
that she was placed in Administrative Segregation “for
about four days” upon arrival at Rodgers because “[t]hey
did not have bed space” in general population. Moreover,
in Green’s written admissions pursuant to Rule 36 of
the Federal Rules of Civil Procedure, Green confirmed
that her statements to the investigator were truthful
and accurate. See Fed. R. Civ. P. 36(a).16 Because Green’s
Rule 36 admission has not been withdrawn or amended, it
conclusively establishes that Green was initially housed in
Administrative Segregation simply because there was a
shortage of beds in general population housing. See Rule
36(b) (“A matter admitted under this rule is conclusively
established unless the court, on motion, permits the
admission to be withdrawn or amended.”). Thus, Green
may not now argue that a genuine dispute of fact exists
with respect to why she was placed in Administrative
Segregation. See United States v. 2204 Barbara Lane,
960 F.2d 126, 129-30 (11th Cir. 1992) (“Unless the party
securing an admission [under Rule 36] can depend on
its binding effect, he cannot safely avoid the expense
of preparing to prove the very matters on which he has
secured the admission, and the very purpose of the rule
is defeated.” (quotations omitted)).
16. Fed. R. Civ. P. 36(a)(1) states: “A party may serve on any
other party a written request to admit, for purposes of the pending
action only, the truth of any matters within the scope of Rule
26(b)(1) relating to:

(A) facts, the application of law to fact, or opinions
about either; and
(B) the genuineness of any described documents.”

24a
Appendix A
Green nonetheless asks us to disregard her Rule 36
admission as well as the other evidence and infer that the
missing memorandum regarding the basis for the decision
initially placing Green in Administrative Segregation,
confirms Green’s version of the “central fact.” Specifically,
Green argues that this missing memorandum would have
established: (1) that the prison officials knew Green was
transgender and (2) acknowledged the substantial risk to
her safety by placing her in involuntary protective custody
immediately upon her arrival. In short, Green wants an
adverse inference based on the missing memorandum.
Notwithstanding that Green’s assertions as to the
contents of the missing memorandum are based on pure
speculation, “an adverse inference is drawn from a party’s
failure to preserve evidence only when the absence of that
evidence is predicated on bad faith.” Bashir v. Amtrak,
119 F.3d 929, 931 (11th Cir. 1997). Green has presented no
evidence of bad faith and, as such, no adverse inference
may be drawn from the memorandum’s absence.
To the extent that Green points to the mere fact
of her placement in general population as evidence of
deliberate indifference, the record does not support such
an argument. It is undisputed that Green was screened
and classified as a minimum-security prisoner, and she
was not designated as a PREA victim or aggressor. The
PREA screening took into account details like Green’s
sexual orientation, gender orientation, and Green’s own
perception of her vulnerability. Based on Green’s intake
screening, officials had no reason to suspect that Green

25a
Appendix A
was in any particular danger of being sexually assaulted.17
Moreover, the record indicates that Green had been
housed in general population when she was previously
incarcerated. Thus, Green has failed to prove that officials
were subjectively aware of any risk to Green’s safety
simply by virtue of placing her in general population.
For these reasons, no reasonable jury could conclude
that that the prison officials were deliberately indifferent
when they placed Green in the general population
dormitory.
2.

The meeting between Green, Warden Hooks,
and Deputy Warden Brown18

Green also argues that Warden Hooks and Deputy
Warden Brown had subjective knowledge of the heightened
risk to Green’s safety because they were aware of specific
threats faced by Green. Green points to the letter she
17. Green also points to the fact that she was sexually assaulted
by Ricard as proof that the risk she faced was substantial. But “[t]
his argument does not hold up to logical scrutiny; it rests entirely
on hindsight bias. The mere fact that an event takes place does not
indicate how likely it was to occur. A risk calculation is a prospective
determination of what might happen based upon events that have
already occurred.” Brooks v. Powell, 800 F.3d 1295, 1301 (11th Cir.
2015).
18. Given that Lieutenant Grubbs was not present for the
meeting and played no part in returning Green to general population,
no reasonable jury could find that Lieutenant Grubbs was subjectively
aware of a substantial risk of serious harm to Green that may have
arisen from the meeting.

26a
Appendix A
sent to her mother—which prompted her mother’s call to
Warden Hooks—and to the subsequent meeting Green had
with Warden Hooks and Deputy Warden Brown about that
letter, in order to establish the prison officials’ awareness
of the risk.
It is undisputed that Green’s mother, upon receiving
the letter from Green stating that her life was in “great
danger,” immediately called Warden Hooks. Warden
Hooks—the same day he received this call—sent for
Green. Nevertheless, Green has failed to establish that the
prison officials had any “subjective knowledge of” a risk
to her safety. Farmer, 511 U.S. at 834, 837; McElligott,
182 F.3d at 1255. It is undisputed that, during the private
meeting with Warden Hooks and Deputy Warden Brown,
Green repeatedly denied being in any danger. Moreover,
Green reiterated the denial when pressed by Warden
Hooks and again explicitly denied being in danger while
on the phone with her mother during the meeting. Green’s
strenuous denials about being in danger effectively erased
any “subjective knowledge” that the prison officials might
otherwise have had from the initial letter and the phone
call from Green’s mother to Warden Hooks. Because Green
reiterated that everything was “okay,” no reasonable jury
could conclude that the prison officials “actually knew of
a substantial risk that [a fellow inmate] would seriously
harm” her. Caldwell v. Warden, 748 F.3d 1090, 1102 (11th
Cir. 2014) (emphasis in original).
But, Green argues, they should have known anyway.
The prison officials should have disregarded Green’s
denials at the meeting because “being a transgender
person and being inside a facility like Rogers [sic] and

27a
Appendix A
being around people that are with violent offenses,
whether it was Darryl Ricard or any other individual,”
placed the officials on alert that Green was subject to a
substantial risk of serious harm. In sum, Green asks us
to infer that the prison officials must have known of this
harm based on the letter Green sent to her mother and
the fact that Green is a transgender inmate.
We disagree. An argument that “they should have
known” is insufficient; Green must present evidence to
“support a reasonable jury’s finding that [the prison
officials] harbored a subjective awareness that [Green]
was in serious danger.” Goodman, 718 F.3d at 1332; see
also Farmer, 511 U.S. at 838 (“[A]n official’s failure to
alleviate a significant risk that he should have perceived
but did not . . . cannot under our cases be condemned as
the infliction of punishment.” (emphasis added)). Having
already determined that Green’s denials to Warden Hooks
and Deputy Warden Brown rebutted the danger alleged
in the letter, Green’s status as a transgender inmate
does not change our analysis. As explained above, based
on Green’s intake screening, officials had no reason to
suspect that Green was in any particular danger of being
sexually assaulted.
Green also argues that her mere failure to identify her
attacker by name should not shield the prison officials. In
Rodriguez v. Secretary for Department of Corrections,
we found that an inmate is not required to identify the
individual who poses a threat so long as the inmate
provides prison officials with other specific facts that put
prison officials “on actual notice of a substantial risk of
harm.” 508 F.3d 611, 621 (11th Cir. 2007). For instance,

28a
Appendix A
while not identifying a particular individual who posed
a threat, Rodriguez informed prison officials: “(1) that
he was a former Latin King who decided to renounce his
membership; (2) that members of the Latin Kings had
threatened to kill him when he returned to the compound
in retaliation for his renunciation; (3) that the compound
at [the prison] was heavily populated with Latin Kings;
and (4) that, in order to prevent an attempt on his life, he
needed either to be transferred to another institution or to
be placed in protective custody.” Id. at 621. We concluded
that based on this “specific information,” “a reasonable
juror could find . . . that [the prison official] actually knew
Rodriguez faced a substantial risk of serious harm.” Id.
at 621-22. But that is not the case here. Green did not just
fail to identify her attacker, she denied that she faced any
threat of being attacked at all.
Green further alleges that, because Warden Hooks
gave Green a piece of paper upon leaving the meeting,
the prison officials knew about the risk of harm to Green.
But the record indicates that Green was given a piece of
paper to prevent suspicion by other inmates that she was
a “snitch.” This action shows that Warden Hooks was
subjectively aware of a different potential harm—the
risk of physical harm to Green based on other inmates’
belief that she was a snitch—not that Warden Hooks was
aware of the risk of sexual violence that Ricard posed to
Green.19 Thus, the note does not support a finding that
either official was deliberately indifferent to any potential
harm Green faced from Ricard.
19. Moreover, this action demonstrates that when Warden
Hooks and Deputy Warden Brown had knowledge or apprehension
of potential danger, they took action to protect Green.

29a
Appendix A
3.

Green’s Letters to Warden Hooks and Deputy
Warden Brown20

Green also points to the letters she sent to Warden
Hooks and Deputy Warden Brown in September as
evidence that the prison officials had subjective knowledge
of the substantial risk of harm she faced. However, both
Warden Hooks and Deputy Warden Brown insist that
they never received or read a letter from Green. Deputy
Warden Brown, who was allegedly sent the only letter that
expressly identified Ricard as Green’s assailant, further
stated that he would not have received such a letter without
acting on it.
Green argues that the letters are entitled to a
presumption of receipt under the classic “mailbox rule”
doctrine. In so arguing, Green refers to the commonlaw doctrine that “has long recognized a rebuttable
presumption that an item properly mailed was received
by the addressee.” Konst v. Fla. E. Coast Ry. Co., 71 F.3d
850, 851 (11th Cir. 1996); see also Barnett v. Okeechobee
Hosp., 283 F.3d 1232, 1239 (11th Cir. 2002). Under this
Circuit’s precedent, “[t]he ‘presumption of receipt’ arises
upon proof that the item was properly addressed, had
sufficient postage, and was deposited in the mail.” Konst,
71 F.3d at 851. Green asks us to extend this doctrine to
the internal prison mail system at Rodgers and assume
Warden Hooks and Deputy Warden Brown received the
letters.
20. It is undisputed that Green never sent a letter to
Lieutenant Grubbs.

30a
Appendix A
We have not previously ruled on the applicability of
the mailbox rule in the context of a prison mail system
for internal mail within the prison. The record is entirely
devoid, however, of any evidence about how internal mail is
collected, sorted, and delivered at Rodgers; the timeliness
and consistency with which mail is delivered; or the overall
reliability of the system. Without any factual development
as to how the Rodgers internal mail system operates, we
cannot ascertain the reasonableness of the “mailbox rule”
presumption to the Rodgers mail system.
Accordingly, on this record, we decline to extend the
“mailbox rule” presumption requested by Green. We will
not assume that because Green placed the letters in the
internal prison mail system, the letters were delivered to
and received by the prison officials prior to the assault.
Consequently, those letters cannot serve as a basis for
finding that Warden Hooks and Deputy Warden Brown
were subjectively aware of any risk to Green.
4.

Placement of Green in Cell 22 with Ricard

Green argues that Lieutenant Grubbs was deliberately
indifferent to the threat Ricard posed to Green’s safety by
placing Ricard and Green in Cell 22 together. In support
of this argument, Green alleges that Ricard told Green he
had “arranged” for Lieutenant Grubbs to place them in
the same cell. This allegation was corroborated by another
inmate, Joel Reid, who testified that Ricard told him that
he was going to speak to Lieutenant Grubbs and ensure
that Ricard and Green were placed in the same cell in
administrative segregation.

31a
Appendix A
Both Ricard and Lieutenant Grubbs, however, tell a
distinctly different story. Although Ricard admitted that
he may have asked to be placed in the cell with Green, he
denied telling Green that he orchestrated the arrangement
with Lieutenant Grubbs. Likewise, Lieutenant Grubbs
denies that Ricard asked her to be placed in a cell with
Green. Moreover, Lieutenant Grubbs denied making the
cell assignments. Rather, she stated that she only escorted
Green, Ricard, and the other inmates that had been “put
on the door” from the A1 dormitory to the Administrative
Segregation housing unit, and then asked another officer
to make the cell assignments.
Nevertheless, even assuming, arguendo, that
Lieutenant Grubbs made the cell assignments and/
or agreed to place Ricard in the same cell with Green,
such action does not establish that Lieutenant Grubbs
acted with deliberate indifference to Green’s safety
because there is no evidence that Lieutenant Grubbs
was aware of any threat posed by Ricard to Green. It is
undisputed that Lieutenant Grubbs was not present at
the meeting between Warden Hooks, Deputy Warden
Brown, and Green during which Green’s letter to her
mother was discussed. Green does not allege that she
spoke to Lieutenant Grubbs about feeling threatened
or being sexually assaulted. And, Lieutenant Grubbs
confirmed that during her limited encounter with Green
while escorting her to the Administrative Segregation
unit, Green did not tell Lieutenant Grubbs that she was
being sexually assaulted by anyone, nor did Green relay
any other specific threat. Accordingly, Green failed to
produce enough evidence to survive summary judgment
on this issue.

32a
Appendix A
5.

Allegations that Rodgers State Prison was
exceedingly dangerous

Green argues that, as a general matter, Rodgers was
exceedingly dangerous and had high rates of sexual assault
and violence. It is well established that an inmate has an
Eighth Amendment right “to be reasonably protected
from constant threat of violence and sexual assault by
his [or her] fellow inmates.” Purcell, 400 F.3d at 1320-21
(quoting Woodhous v. Virginia, 487 F.2d 889, 890 (4th
Cir. 1973)). While “confinement in a prison where violence
and terror reign is actionable,” id. at 220, “[w]e stress
that [a] plaintiff . . . must show more than ‘a generalized
awareness of risk.’” Caldwell, 748 F.3d at 1101. In order to
show that a substantial risk of serious harm existed based
on the general threat posed by inmate-on-inmate violence
at Rodgers, Green must prove “that serious inmate-oninmate violence was the norm or something close to it.”
Purcell, 400 F.3d at 1322 (citation omitted).
In Harrison v. Culliver, 746 F.3d 1288 (11th Cir. 2014),
we considered whether 33 incidents of inmate-on-inmate
violence—four of which occurred in the same hallway
where the assault of the plaintiff occurred—over the
period of three and a half years in a prison housing 800900 inmates created a substantial risk of serious harm,
for purposes of § 1983 Eighth Amendment liability. We
concluded that the evidence presented in that case was
“hardly sufficient to demonstrate that [the institution] was
a prison ‘where violence and terror reign.’” Id. at 1300
(quoting Purcell, 400 F.3d at 1320).

33a
Appendix A
Here, the record in this case does not support Green’s
claim. There is evidence that 28 reported incidents of
sexual assault occurred over five years at Rodgers, which
had a prison population of 1,500 inmates. While sexual
assault is terrible, under our precedent, these numbers
do not rise to the level of demonstrating that Rodgers
was “a prison ‘where violence and terror reigned.’” Id.
Indeed, Green has pointed to fewer instances of sexual
violence reported over a longer period of time at Rodgers,
in an even larger facility than the prison in Harrison. Nor
has Green pointed to any evidence that specific features
of Rodgers 21 or its population 22 render it particularly
dangerous. Because Green has failed to offer evidence of
pervasive staffing issues, logistical issues, or other risks
posed by the prison population in Rodgers, we cannot
21. For example, pervasive staffing issues or logistics issues
that prevent prison officials from addressing violence may support
a claim of deliberate indifference to a substantial risk of serious
harm. See, e.g., Lane v. Philbin, 835 F.3d 1302, 1307-08 (11th Cir.
2016) (allegations that only one officer supervised two separate
dorms and that inmates regularly brought back weapons from
their work detail, fashioned weapons from prison materials—and
officials did not confiscate weapons sufficiently set out a substantial
risk of serious harm); Hale, 50 F.3d at 1582-83 (evidence that
defendant was aware of severe overcrowding problems and the fact
that “inmate-on-inmate violence occurred regularly when the jail
was overcrowded” was sufficient to withstand summary judgment).
22. See Cottone v. Jenne, 326 F.3d 1352, 1355-56, 1358-59
(11th Cir. 2003) (prison population of mentally ill inmates who
were kept in unlocked cells and they could interact with each
other was sufficient to prove potential knowledge of a substantial
risk of serious harm when the guards were aware of an inmate’s
history of violent schizophrenic outbursts).

34a
Appendix A
say that Green has proven that the conditions at Rodgers
posed a substantial risk of serious harm.
***
Ultimately, we conclude that no genuine issues of
material fact remain with respect to Green’s deliberate
indifference Eighth Amendment claim because the
record taken as a whole could not lead a rational trier
of fact to find in favor of Green. Goodman, 718 F.3d at
1331 (quotation marks omitted); see also Fed. R. Civ.
P. 56(a). We affirm the district court’s order finding no
constitutional violation. 23
IV. SUPERVISORY LIABILITY CLAIMS
“It is well established in this Circuit that supervisory
officials are not liable under § 1983 for the unconstitutional
acts of their subordinates on the basis of respondeat
superior or vicarious liability.” Cottone v. Jenne, 326 F.3d
1352, 1360 (11th Cir. 2003) (quoting Hartley v. Parnell, 193
F.3d 1263, 1269 (11th Cir. 1999)). Simply put, “there can
be no supervisory liability . . . if there was no underlying
constitutional violation.” Paez v. Mulvey, 915 F.3d 1276,
1291 (11th Cir. 2019) (quoting Gish v. Thomas, 516 F.3d
952, 955 (11th Cir. 2008). Because Green failed to allege
a constitutional violation, her supervisory-liability claims
cannot stand.
23. Because we find that no constitutional violation occurred,
we need not address the prison officials’ argument that they are
entitled to qualified immunity.

35a
Appendix A
V. CONCLUSION
In light of the foregoing, the district court did not
err in granting summary judgment in favor of the prison
officials.
AFFIRMED.

36a
Appendix
B
APPENDIX B
— OPINION
OF THE
UNITED STATES DISTRICT COURT FOR
THE SOUTHERN DISTRICT OF GEORGIA,
STATSBORO DIVISION, DATED MARCH 21, 2017
IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF GEORGIA,
STATESBORO DIVISION
CV 614-046
DARIUS ISHUN GREEN,
Plaintiff,
v.
BRAD HOOKS, ET AL.,
Defendants.
March 21, 2017, Decided;
March 21, 2017, Filed
ORDER
Presently before the Court is Defendants’ Motion
for Summary Judgment. (Doc. 131.) Plaintiff, a former
Georgia Department of Corrections (“GDC”) inmate,
alleges that Defendants violated the Eighth Amendment
of the United States Constitution and brings suit under
42 U.S.C. § 1983. Defendants argue that they did not
violate the Constitution and that they are immune from

37a
Appendix B
suit based upon the principle of qualified immunity. This
Court agrees with Defendants.
I. Background
The Court notes, at the onset, that Plaintiff has made
exceedingly difficult this Court’s task of determining what
material facts are in genuine dispute. As Defendants noted
in their reply brief, Plaintiff’s response to Defendants’
Statement of Material Facts and Plaintiff’s response to
Defendants’ motion for summary judgement repeatedly
mystifies the facts, confuses the timeline of events, and
makes multiple unsupported assertions.1 These actions
placed an excessive burden on the Court to continually
1. Local Rule 56.1 states that “Upon any motion for summary
judgment pursuant to Rule 56 of the Federal Rules of Civil
Procedure, in addition to the brief, there shall be annexed to the
motion a separate, short, and concise statement of the material
facts as to which it is contended there exists no genuine dispute to
be tried as well as any conclusions of law thereof. Each statement
of material fact shall be supported by a citation to the record. All
material facts set forth in the statement required to be served by the
moving party will be deemed to be admitted unless controverted by
a statement served by the opposing party.” This rule clearly requires
the responding party to not only admit or deny any disputed material
facts, but also to support any denial with citations to the record.
Unfortunately, Plaintiff has not adhered to these rules. At
least thirteen times Plaintiff rebutted a statement of material fact
by Defendant without providing a single citation to the record. (See
Doc. 163 ¶¶ 38, 44, 77, 107, 121, 123, 126, 128, 133, 134, 135, 137,
166.) And, with some overlap, at least fourteen times Plaintiff’s
denial was not responsive to the fact asserted. (See id. ¶¶ 56, 65,
72, 73, 74, 77, 101, 107, 121, 123, 126, 128, 133, 137.)

38a
Appendix B
parse through the record to determine fact from fiction,
when in reality no genuine dispute of fact actually existed.
See Reese v. Herbert, 527 F.3d 1253, 1268 (11th Cir. 2008)
(citing with approval the Seventh Circuit’s admonition
that “judges are not like pigs, hunting for truffles buried
in briefs”); Smith v. Lamz, 321 F.3d 680, 683 (7th Cir.
2003) (“A district court is not required to ‘wade through
improper denials and legal argument in search of a
genuinely disputed fact.’”).
A. Plaintiff’s Incarceration
Plaintiff’s story begins on May 10, 2012, in the Georgia
Diagnostic and Correction Prison (“GDCP”). The GDCP
houses and classifies new inmates so that they can be
appropriately placed inside the Georgia Prison System.
(Doc. 131-1 ¶¶ 15-26.) As part of the classification program,
prison officials evaluate the inmate’s criminal history,
individual characteristics, and mental and physical
health needs. (Id.) Prison officials make an initial security
classification to determine appropriate housing, levels
of supervision, and work-detail assignment. (Id.) They
also screen inmates in accordance with the Prison Rape
Elimination Act (“PREA”) to determine if they are at risk
of being either a sexual victim or a sexual aggressor. (Id.)
The PREA screening considers many factors, including
the inmate’s actual and perceived sexual orientation
and gender identity, disabilities, age, physical build,
incarceration history, criminal history, prior experiences
of sexual victimization, and the inmate’s own perception
of vulnerability. (Id.) Prison officials gave Plaintiff a
minimum security classification fit for general population

39a
Appendix B
and designated her2 as neither a PREA victim nor a PREA
aggressor. (Id. at ¶¶ 124-128.)
While at GDCP, Plaintiff also underwent orientation
about prison life and the PREA. She acknowledged this
orientation in writing, and she also acknowledged that
she had the responsibility to request protective custody
if she felt her safety threatened in the future. (Doc. 131-1
¶¶ 121-123.) On July 19, 2012, prison officials transferred
Plaintiff to Rodgers State Prison. (Id. at ¶ 130.)
B. The Prison
Rodgers State Prison is a medium-security facility
that houses adult male felons for the Georgia Department
of Corrections. (Doc. 131-1 ¶ 46.) Located in Reidsville,
Georgia, it consists of 6 buildings: Buildings A, B, C, F,
G, and H. (Id. ¶ 48.) Each building is composed of four
dormitories numbered 1-4. Inside each dormitory are
either rooms or cells. And inside each room or cell are
beds, which are numbered and assigned to individual
inmates. Prison officials placed Plaintiff in Building A,
Dormitory 1, Room 3, Bed 5. (Doc. 163, Exhibit 30.)
Al Dormitory was a general-population dormitory.
Inmates in general population were usually well-behaved
and were all cleared to live with each inmate in their
dormitory. (Doc. 131-1 ¶¶ 56, 57, 71.) A1 Dormitory housed
2. Plaintiff is transgender. The Court will refer to Plaintiff
using the feminine pronoun as Plaintiff identifies with the female
gender although biologically male. (Doc. 131-1 ¶ 116.)

40a
Appendix B
inmates in an open format that allowed them to roam
freely from room to room. (Id. at ¶ 55.) It had two halls
with two bedrooms per hall, a television room, and a day
room. (Id. at ¶¶ 58-64.) Each bedroom had eight bunkbeds
and housed sixteen inmates. (Id. at ¶ 60.)
The security in A1 Dormitory reflected its general
population status. Officers were not continuously present
in the dormitory, but they daily conducted multiple
“official counts.” (Doc. 131-1 ¶ 66.) The parties dispute the
frequency with which those occurred, (see id.; doc. 131-11
at 134-136), but the number appears to be at least twice
per day, and potentially up to five times per day, with
at least one count occurring at night (doc. 131-11 at 134136). Officers would also regularly enter the dormitory to
deliver mail, and they conducted “census counts” several
times per day, “including at each shift change.” (Doc. 131-1
¶ 67; Doc. 163 ¶ 67; Doc. 131-11 at 134-136.) Additionally, an
officer located in the control room of building A monitored
the hallways and common rooms of the A1 Dormitory 24
hours a day. (Doc. 131-1 ¶¶83-85; Doc. 141 at 41-44.)
A3 and A4 Dormitories, on the other hand, were used
for Administrative Segregation. (Doc. 131-1 ¶¶ 80-81.)
Prisoners placed in Administrative Segregation, unlike
those placed in general population, usually have reason
to be isolated from other prisoners. Thus, A3 Dormitory
contained twenty-three double-occupancy cells and
one single-occupancy cell, and A4 Dormitory contained
twenty-four single-occupancy cells. (Doc. 131-4 ¶ 23.)
The security in A3 and A4 was also commensurate to
its population. Prison policy required A3 and A4 security

41a
Appendix B
officers to perform 30-minute security and safety checks.
(Doc. 131-1 ¶ 87.) Officers would document these safety
checks by marking on a “door sheet” or “30-minute Check
Sheet.” (Doc. 143 at 18-20.) Additionally, Officers would
notate information about individual inmates, such as
whether an inmate ate his meals, took a shower, or went
to the yard for exercise. (Id.)
C. Plaintiff’s Arrival
When Plaintiff arrived at Rodgers on July 19, the
prison did not have enough beds to accommodate her in
a general-population dormitory. (Doc. 131-1 ¶ 133.) Thus,
prison officials put Plaintiff in Administrative Segregation
and placed her in A4 Dormitory until they could find a
permanent spot for her in the prison. Four days later,
Prison officials moved Plaintiff to her permanent spot in
the general-population Al Dormitory. (Doc. 163, Exhibit 30.)
Plaintiff’s troubles began almost immediately upon
stepping foot into the A1 Dormitory. Prior to arriving at
Rodgers, Plaintiff supposedly had breast enhancement
surgery, and she maintained a feminine appearance upon
entering Rodgers. (Doc. 163-3; Doc. 162 at 19.) Because
of Plaintiff’s feminine appearance, Plaintiff’s arrival did
not go unnoticed. (Id.)
On Plaintiff’s first day in the dormitory, inmate
Darryl Ricard, a retired member of the Vice-Lord gang
who was serving a life sentence without parole for the
malicious rape of an eleven-year-old child in retaliation
for her father’s unpaid debts, approached Plaintiff to offer

42a
Appendix B
protection. (Doc. 131-1 ¶ 166.) Ricard claimed he was a
lifer and only looking a friend. (Doc. 132-1 at 8.) Plaintiff
assented. (Id.) But while Plaintiff and Ricard both agree
that this initial encounter was not threatening or coercive,
Plaintiff alleges that the relationship quickly turned sour.
(Id. at 7-9.)
Plaintiff alleges that within two weeks Ricard
demanded Plaintiff perform sexual acts upon him or else
risk serious bodily harm. (Doc. 131-1 ¶ 171.) Plaintiff also
alleges that Ricard threatened to have Plaintiff harmed
if Plaintiff transferred to another building. (Doc. 132-1 at
11-12.) Thus, despite an initial resistance, Plaintiff states
she relented to Ricard’s demands and performed sexual
favors for him for fear of her life.
Ricard, naturally, denies Plaintiff’s allegations. Ricard
alleges that he was Plaintiff’s prison “husband” and that
any sexual acts between the two were consensual. (Doc.
163-3 at 10:00-12:00.) Nonetheless, regardless of their
differing views about whether such acts were consensual,
Plaintiff and Ricard agree that during the next several
weeks Plaintiff performed sexual acts upon Ricard
multiple times. (Id.; Doc. 132-1 at 18.)
D. The Meeting
On or around August 24, 2012, Plaintiff penned a letter
to her mother stating that her “life was in great danger”
and asking her mother for help. (Doc. 131-28 (emphasis
in original).) Plaintiff’s mother responded as any good
mother would: She called Warden Bradley Hooks and

43a
Appendix B
informed him of the situation. (Doc. 131-1 ¶ 210.) On the
same day, Warden Hooks summoned Plaintiff to his office
to discuss the situation with him and Deputy Warden of
Security John Brown. (Doc. 131-1 ¶ 214.)
In the confines of his office, Warden Hooks inquired
into Plaintiff’s personal well-being. The parties, however,
cannot agree on exactly what questions the Warden asked.
Defendants assert that Warden Hooks asked Plaintiff
whether she was in any danger or wanted to go into
protective custody. (Doc. 131-1 ¶¶ 219-222.) But Plaintiff
denies that Warden Hooks ever “specifically asked
Plaintiff if she was in danger” or that he ever “ask[ed]
Green directly if she wanted to be placed in protective
custody.” (Doc. 163 ¶¶ 219-222.) Nevertheless, the parties
agree that, whatever questions were asked, Warden Hooks
elicited from Plaintiff statements that she was not afraid
and that she did not have any problems. (Doc. 131-1 ¶¶ 223224.) The parties also agree that Plaintiff never disclosed
to Warden Hooks or Deputy Warden Brown that Ricard,
or anyone, was sexually assaulting her in A1 Dormitory,
that she never asked to be moved to a different dormitory
or camp, and that she never admitted to being so much
as uncomfortable in A1 Dormitory. (Doc. 144 at 85-88.)
During their meeting, Warden Hooks also went beyond
merely talking to Plaintiff. In response to questions he
had about the veracity of Plaintiff’s assurances in light of
her mother’s grave complaints, he telephoned Plaintiff’s
mother. (Doc. 144 at 84.) He spoke with Plaintiff’s mother
himself, and he also gave Plaintiff the opportunity to speak
with her mother. (Id. at 84-85.) But Plaintiff continued to

44a
Appendix B
assure Warden Hooks she had no problems. (Id.) Unable
to substantiate any of the claims made by Plaintiff’s
mother, Warden Hooks arranged for Plaintiff to return to
A1 Dormitory in a manner that would not raise suspicion
among the other inmates. (Id. at 85.)
Several weeks later, on September 17, 2012, Plaintiff,
allegedly, made another cry for help. Plaintiff claims she
wrote a letter alleging that Ricard was forcing her to
perform sexual acts in A1 Dormitory. (Doc. 131-1 ¶ 225.)
Plaintiff claims that she addressed the letter to the Deputy
Warden of Security and placed it in the prison mailbox.
(Id. ¶ 226.) Defendants claim no Defendant ever received
or read this letter. (Id. ¶¶ 257-259.) Plaintiff claims
Defendants are lying, but she can offer no proof for this
assertion beyond her own testimony. (Doc. 163 ¶¶ 257-259.)
E. “Put on the Door”
On the night of Thursday, September 21, 2012, inmates
in Al Dormitory, allegedly tired of having too many open
homosexuals in the dormitory, forced Plaintiff and two
other inmates to exit the dormitory. (Doc. 131-1 ¶¶ 261263.) In prison parlance, Plaintiff and the other ousted
inmates were “put on the door.” (Id.) Plaintiff packed her
belongings, exited the dormitory, and waited for a security
officer so that she could request protective custody. She
viewed her departure from A1 Dormitory as a blessing,
because it finally granted her freedom from Ricard
without any fault of her own. (Doc. 132-1, p. 24.)
Unfortunately, Plaintiff’s relief was short lived. When
Ricard learned that Plaintiff had been put on the door,

45a
Appendix B
he informed Plaintiff that he would join her. (Doc. 131-1 ¶
266.) Whether Ricard joined because he feared retaliation
for protecting homosexual inmates, as he claimed, or
because he desired to follow Plaintiff to her next location
for more nefarious purposes, is not clear. What is clear,
however, is that Ricard requested protective custody in
response to the ouster of inmates Green, Reid, and Kiya,
and that prison officials placed him in Administrative
Segregation because of his request. (Id. ¶ 267.) Also
clear, despite Plaintiff’s averments to the contrary, is that
Ricard left A1 Dormitory at the same time as the other
three inmates. (Doc. 132-1 at 23-24; Doc. 131-1 ¶ 277.)
Once outside the dormitory, all four inmates were
met by Lieutenant Terrie Grubbs, and they requested
protective custody. (Doc. 131-1 ¶ 272; Doc. 132-1 at 24.)
Another officer then escorted Plaintiff to the shower room
of A4 Dormitory, while a third officer placed Ricard in A3
Dormitory. (Doc. 131-1 ¶¶ 292A-294.)
For the next five hours, from 11:00 p.m. on September
20, 2012, to 4:00 a.m. on September 21, 2012, Plaintiff
remained in the shower room of A4 Dormitory. (Doc. 131-1
¶ 298.) During that time, she wrote a statement detailing
her request for protective custody, and she made small
talk with officers. (Id. at ¶ 296-299.) At no point in either
her written statement or casual conversation with officers
did she mention that Ricard had sexually assaulted her
in A1 Dormitory. (Id. ¶ 300.) Then, around 4:00 a.m. an
unknown officer, but not Lt. Grubbs, escorted Plaintiff
to Cell 22 of A3 Dormitory — the cell of inmate Darryl
Ricard. (Id. ¶¶ 302-303.)

46a
Appendix B
F. The Assault
Once in Cell 22, Plaintiff’s situation allegedly went
from bad to worse. After a short reprieve in which Ricard
allowed Plaintiff to get some sleep, Plaintiff alleges
that Ricard demanded Plaintiff perform sexual acts on
him. (Doc. 131-1 ¶¶ 319-320; 347-351.) Plaintiff alleges
that Ricard threatened her with a razor blade and then
proceeded to orally and anally rape her. (Id. ¶¶ 350-351.)
After the assault, Plaintiff returned to her bed and wrote
a letter claiming that she had just been raped. (Id. ¶
354.) When Ricard was not looking, Plaintiff slipped the
note under the cell door. (Id. ¶ 355.) Approximately two
minutes later, guards opened the door of Cell 22 to see
Ricard threatening Plaintiff with a razor blade. (Id. ¶
363.) The responding sergeant convinced Ricard to drop
the blade, guards removed Ricard from the cell, and the
Sexual Assault Response Team arrived to investigate the
situation. (Id. ¶¶ 364-367.)
After the alleged assault, Plaintiff and Ricard
submitted to an interview with the GDC’s Internal
Investigation Unit. In her interview, Plaintiff informed
investigators that Ricard had been sexually assaulting
her for weeks and that none of their sexual contact had
been consensual. (Doc. 132-1 at 9-14.) Ricard, for his part,
asserted that the sexual contact was consensual and that
Plaintiff admitted to him she was setting him up in order
to fabricate a lawsuit against the prison. (Doc. 163-3.)
State prosecutors subsequently twice attempted to indict
Ricard. (Doc. 171 at 15.) The grand juries rejected both
attempts. (Id.) Ricard never faced any criminal charges

47a
Appendix B
for the alleged rape. (Id.) In 2014, Plaintiff filed suit in
this Court.
II. Standard of Review
Summary judgment is appropriate only if “there is no
genuine dispute as to any material fact and the movant
is entitled to judgment as a matter of law.” Fed. R. Civ.
P. 56(a). Facts are “material” if they could affect the
outcome of the suit under the governing substantive law,
and a dispute is genuine “if the evidence is such that a
reasonable jury could return a verdict for the non-moving
party.” Anderson v. Liberty Lobby, Inc., 477 U.S. 242, 248,
106 S. Ct. 2505, 91 L. Ed. 2d 202 (1986). The Court must
view factual disputes in the light most favorable to the
non-moving party, Matsushita Elec. Indus. Co. v. Zenith
Radio Corp., 475 U.S. 574, 587, 106 S. Ct. 1348, 89 L. Ed.
2d 538 (1986), and must draw “all justifiable inferences
in [the non-moving party’s] favor.” United States v. Four
Parcels of Real Prop., 941 F.2d 1428, 1437 (11th Cir. 1991)
(en banc) (internal punctuation and citations omitted).
The Court should not weigh the evidence or determine
credibility. Anderson, 477 U.S. at 255.
The moving party has the initial burden of showing
the Court, by reference to materials on file, the basis
for the motion. Celotex Corp. v. Catrett, 477 U.S. 317,
323, 106 S. Ct. 2548, 91 L. Ed. 2d 265 (1986). Because
the standard for summary judgment mirrors that of a
directed verdict, the initial burden of proof required by
either party depends on who carries the burden of proof
at trial. Id. at 323. When the movant does not carry the

48a
Appendix B
burden of proof at trial, it may satisfy its initial burden in
one of two ways — by negating an essential element of the
non-movant’s case or by showing that there is no evidence
to prove a fact necessary to the non-movant’s case. See
Clark v. Coats & Clark, Inc., 929 F.2d 604, 606-08 (11th
Cir. 1991) (explaining Adickes v. S.H. Kress & Co., 398 U.S.
144, 90 S. Ct. 1598, 26 L. Ed. 2d 142 (1970) and Celotex
Corp. v. Catrett, 477 U.S. 317, 106 S. Ct. 2548, 91 L. Ed. 2d
265 (1986)). The movant cannot meet its initial burden by
merely declaring that the non-moving party cannot meet
its burden at trial. Clark, 929 F.2d at 608.
If — and only if — the movant carries its initial
burden, the non-movant must “demonstrate that there is
indeed a material issue of fact that precludes summary
judgment.” Id. When the non-movant bears the burden of
proof at trial, the non-movant must tailor its response to
the method by which the movant carried its initial burden.
If the movant presented evidence affirmatively negating a
material fact, the non-movant “must respond with evidence
sufficient to withstand a directed verdict motion at trial
on the material fact sought to be negated.” Fitzpatrick, 2
F.3d at 1116. If the movant shows an absence of evidence
on a material fact, the non-movant must either show that
the record contains evidence that was “overlooked or
ignored” by the movant or “come forward with additional
evidence sufficient to withstand a directed verdict motion
at trial based on the alleged evidentiary deficiency.” Id. at
1117. The non-movant cannot carry its burden by relying
on the pleadings or by repeating conclusory allegations
contained in the complaint. See Morris v. Ross, 663 F.2d
1032, 1033-34 (11th Cir. 1981). Rather, the non-movant

49a
Appendix B
must respond with affidavits or as otherwise provided by
Federal Rule of Civil Procedure 56.
In this action, the Clerk of the Court gave Plaintiff
notice of the motions for summary judgment and
informed her of the summary judgment rules, the right
to file affidavits or other materials in opposition, and the
consequences of default. (Doc. 133.) Therefore, the notice
requirements of Griffith v. Wainwright, 772 F.2d 822, 825
(11th Cir. 1985) (per curiam), are satisfied. The time for
filing materials in opposition has expired, and the motion
is now ripe for consideration.
III. Discussion
Plaintiff asserts two theories of recovery: (1) Plaintiff
asserts that all Defendants violated the Eighth and
Fourteenth Amendments to the United States Constitution
because they were deliberately indifferent to a known
risk that Plaintiff would be sexually assaulted, and (2)
Plaintiff asserts a supervisory-liability claim against all
Defendants for violating the Eighth Amendment by failing
to protect Plaintiff from sexual assault in the A1 and A3
Dormitories. Although Plaintiff’s supervisory-liability
claims merely re-hash her deliberate indifference claims,
the Court will analyze each claim separately. It begins
with the question of deliberate indifference.
A. Deliberate Indifference Claims
Plaintiff’s deliberate indifference claim rests upon
the Eighth Amendment’s prohibition of “cruel and

50a
Appendix B
unusual punishment.” Essentially, Plaintiff claims that
Defendants knowingly ignored dangers to Plaintiff such
that the conditions Plaintiff faced in prison constituted
cruel and unusual punishment. Because the Supreme
Court has extended the Eighth Amendment’s prohibitions
to the States, Plaintiff may properly make an Eighth
Amendment claim against Defendants, employees of the
State of Georgia. See Rhodes v. Chapman, 452 U.S. 337,
344-45, 101 S. Ct. 2392, 69 L. Ed. 2d 59 (1981). Thus, the
Court must determine if Defendants’ actions violated the
Eighth Amendment.
The Eighth Amendment, as interpreted by the
Supreme Court, applies to the treatment of prisoners
as well as the conditions of their confinement. Rhodes,
452 U.S. at 345. While the Eighth Amendment “does not
mandate comfortable prisons” or preclude “restrictive
and even harsh” prison conditions, it does establish a
minimum level of prisoner safety. Farmer v. Brennan, 511
U.S. 825, 832-33, 114 S. Ct. 1970, 128 L. Ed. 2d 811 (1994).
Thus, a prison official violates the Eighth Amendment
when both (1) his acts or omissions deny prisoners “the
minimal civilized measure of life’s necessities,” and (2)
he has a “sufficiently culpable state of mind,” i.e., “one of
deliberate indifference to inmate health of safety.” Id. at
834 (citations omitted)(internal quotation marks omitted).
“To survive summary judgment in a case alleging
deliberate indifference, a plaintiff must ‘produce sufficient
evidence of (1) a substantial risk of serious harm; (2) the
defendants’ deliberate indifference to that risk; and (3)
causation.’” Goodman v. Kimbrough, 718 F.3d 1325, 1331

51a
Appendix B
(11th Cir. 2013)(quoting Carter v. Galloway, 352 F.3d
1346, 1349 (11th Cir. 2003)). To establish the deliberate
indifference prong, a plaintiff must prove “‘(1) subjective
knowledge of a risk of serious harm; (2) disregard of that
risk; (3) by conduct that is more than gross negligence.’”
Id. at 1332 (quoting Townsend v. Jefferson County, 601
F.3d 1152, 1158 (11th Cir. 2010)). Or, put differently, “[t]o
be deliberately indifferent, a prison official must know of
and disregard ‘an excessive risk to inmate health or safety;
the official must both be aware of facts from which the
inference could be drawn that a substantial risk of serious
harm exists, and he must also draw the inference.’” Id.
(emphasis in original) (quoting Purcell ex. rel. Estate of
Morgan v. Toombs Cty., Ga, 400 F.3d 1313, 1319-20 (11th
Cir. 2005)). Thus, to prove deliberate indifference, a
plaintiff may not merely prove the defendant should have
objectively known that a substantial risk of serious harm
existed, but that the defendant “subjectively knew of the
substantial risk of serious harm and that [he] knowingly
or recklessly disregarded that risk.” Id.
Deliberate indifference, however, is not merely
negligence. The deliberate indifference standard requires
“a great deal more” proof than a traditional negligence
standard. Goodman, 718 F.3d at 1332. “‘It is not . . . every
injury suffered by one prisoner at the hands of another
that translates into constitutional liability for prison
officials responsible for the victim’s safety.’” Id. at 1333
(quoting Farmer, 511 U.S. at 834).
The heightened deliberate indifference standard
reflects the fact that “just as not every injury is an injury

52a
Appendix B
of constitutional magnitude, not every wrong that would
be actionable under state or common law is cognizable as
a constitutional tort under § 1983.” Goodman, 718 F.3d at
1333. It also reflects the fact that judges are ill-suited to
meddle, even with the best of intentions, in the day-to-day
operations of the nation’s prisons. Id. at 1334. Therefore,
federal courts must be careful to strictly adhere to the
exacting standards for deliberate indifference claims
and avoid the temptation to apply a lesser standard in
acquiescence to any personal sympathies or desires, no
matter how justified. Id.
Goodman v. Kimbrough provides a particularly
vivid illustration of the high walls a plaintiff must scale
before succeeding on a deliberate indifference claim. In
Goodman, the plaintiffs, a 67-year old man with dementia,
Mr. Goodman, and his wife, Mrs. Goodman, sued prison
officials after Mr. Goodman’s cell mate viciously beat him
in the night. Despite overwhelming evidence of negligence,
however, the Eleventh Circuit declined to find a violation
of his constitutional right to be free of cruel and unusual
punishment.
Police arrested Mr. Goodman for mistakenly trying
to gain entry into a neighbor’s trailer during an evening
walk. Upon learning of her husband’s arrest, Mrs. Goodman
drove to the police station where she provided copies of her
husband’s medical records and requested that he be placed
in an isolation cell “so that he would not unintentionally
insult another inmate and thereby come in harm’s way.” 718
F.3d at 1329. Despite Mrs. Goodman’s request, however,
police housed her husband with another inmate.

53a
Appendix B
When the officers returned to the cell several hours
later, they found Plaintiff covered in blood with contusions
on his face, his eyes swollen shut, and the floor of the cell
“laden with blood.” 718 F.3d at 1330. When asked what
caused his injuries, “Goodman, clearly bewildered, lifted up
his hands and said, ‘These two right here.’” Id. The sheriff’s
department subsequently determined that Goodman’s
cellmate was the real culprit. As a result of his injuries,
Goodman spent seven days in the intensive-care unit and
an additional two to three weeks in the jail infirmary.
Plaintiff and his wife sued prison officials on a claim
of deliberate indifference. Plaintiffs presented two
particularly damaging pieces of evidence. First, prison
policy stated that officers were supposed to perform “head
counts” at 6:00 p.m. and 12:00 a.m. every night in which
they would physically enter the cells and look at prisoners’
faces and check their armbands. Additionally, they were
supposed to perform “cell counts” every hour after 12:00
a.m. in which they would look into the window of each
cell. On the night of the incident, one officer conducted a
“head count” at 6:00 p.m., but he failed to enter the cell
and merely looked through the window. Neither officer
on duty conducted the 12:00 a.m. “head count” or even a
single “cell count.” Plaintiff also presented evidence that
another inmate had repeatedly pushed the emergency
call button to notify officers of the fight in Goodman’s
cell, but officers deactivated the call button and failed to
investigate the situation.
Despite the definitive evidence of negligence, the
Court of Appeals affirmed the district court’s opinion in

54a
Appendix B
favor of the defendants. The Court noted that although
the judges were “disturbed by the dereliction of duty that
facilitated the violence visited upon Goodman while he
was under the officer’s charge,” Goodman failed to prove
that either officer was “subjectively aware of the peril to
which Goodman was exposed on the night in question.”
718 F.3d at 1334. The Court concluded that:
the fact that the officers deviated from policy
or were unreasonable in their actions — even
grossly so — does not relieve Goodman of
the burden of showing that the officers were
subjectively aware of the risk; in other words,
he cannot say, “Well, they should have known.”
Were we to accept that theory of liability, the
deliberate indifference standard would be
silently metamorphosed into a font of tort law
— a brand of negligence redux — which the
Supreme Court has made abundantly clear it
is not.
Id. (citing Farmer, 511 U.S. at 838).
The facts of this case dictate a similar outcome.
Plaintiff makes three claims: (1) Defendants “condon[ed]
and promot[ed] unsafe prison conditions known to place
transgender Green in substantial risk of physical injury”;
(2) Defendants “show[ed] deliberate indifference to
actual physical injuries Defendants knew Green had
suffered and thereby creating an environment that led
to her actually being anally raped”; and (3) Defendants
“show[ed] deliberate indifference to Green being placed

55a
Appendix B
in a protective-custody cell with an inmate Defendants (at
the very least Grubbs and John Doe) knew was Green’s
sexual assailant.” (Doc. 1 ¶41.) To support her claims,
Plaintiff makes several factual allegations, including:
(1) Defendants knew Plaintiff was transgender upon
her arrival at Rodgers but ignored the dangers she
faced as a transgender by placing her in a general
population dormitory; (2) Defendants knew Plaintiff
was in “substantial danger” because Al Dormitory was
a dangerous place with high rates of sexual assault;
(3) Defendants knew Plaintiff faced a substantial risk
of assault by inmate Ricard because Plaintiff’s mother
had informed Warden Hooks she was in danger and
Defendants Hooks and Brown received a letter from
Plaintiff alleging that Ricard was sexually assaulting her;
and (4) Defendants knew that Plaintiff faced a substantial
risk of harm when they placed her in a cell with inmate
Ricard after Plaintiff and Ricard were “put on the door.”
Even taking Plaintiff’s evidence in a light most favorable
to her, however, Plaintiff has failed to provide sufficient
evidence by which any reasonable jury could find any
Defendant was deliberately indifferent to a substantial
harm. See Goodman, 718 F.3d at 1332 (“[The plaintiff]
must adduce specific evidence from which a jury could
reasonably find in his favor; [t]he mere existence of a
scintilla of evidence in support of [his] position will be
insufficient.” (internal quotation marks omitted)).
1.

Subjective Knowledge of a Risk of Serious
Harm

Plaintiff has failed to sufficiently prove that any
Defendant had subjective knowledge of a risk of serious

56a
Appendix B
harm. Plaintiff makes several attempts to establish
subjective knowledge. In the opening pages of her
response brief, Plaintiff claims that “Hooks authorized
Green to be put in administrative custody after guards
recognized Green’s feminine characteristics along with
noticing Green had breasts during an initial strip search.”
(Doc. 162 at 2.) The clear inference of Plaintiff’s assertion
is that Defendants knew, from Plaintiff’s very arrival, that
Plaintiff would be exposed to harm if she was placed in
general population, so they segregated her immediately.
Plaintiff’s assertion (and subsequent inference) fails to
hold up for multiple reasons.
First, Plaintiff’s assertion contradicts a Rule 36
admission she made during the course of discovery.
Federal Rule of Civil Procedure 36 allows parties to
request admissions of fact from the opposing party. The
responding party must admit the fact, or, “if not admitted,
the answer must specifically deny it or state in detail why
the answering party cannot truthfully admit or deny it.”
Fed. R. Civ. P. 36(a)(4). Once a party makes an admission,
the admission “is conclusively established unless the
Court, on motion, permits the admission to be withdrawn
or amended.” Fed. R. Civ. P. 36(b).
In her initial inter v iew w ith GDC’s inter nal
investigator, Plaintiff stated that she was placed in
Administrative Segregation upon her arrival at Rodgers
because the prison did not have enough bed space. (Doc.
132-1 at 5-6.) Prison officials recorded this interview
on a CD. In response to Defendants’ Rule 36 request
for admissions of fact, Plaintiff admitted the CD that

57a
Appendix B
Defendants entered into evidence was a true and accurate
copy of the audio recording of Plaintiff’s statement to the
GDC internal investigator. (Doc. 131-20 at 7.) She then
admitted that the statements she made on the CD were
“truthful and accurate.” (Id.) This Rule 36 admission
conclusively establishes, for purposes of this litigation,
that prison officials placed Plaintiff in Administrative
Segregation because the prison lacked sufficient bed
space. Plaintiff is bound to that admission. Fed. R. Civ. P.
36(b); see Williams v. City of Dothan, Ala., 818 F.2d 755,
762 (11th Cir. 1987) (noting that a Rule 36 admission of
fact is “conclusively established” and a district court is not
free to ignore it). Plaintiff had full time and opportunity to
review the audio recording and reflect upon its accuracy.
Plaintiff cannot now use alternative facts.
Plaintiff’s assertion also suffers from another flaw:
it lacks sufficient supporting evidence. Federal Rule
of Procedure 56 requires that factual assertions be
supported by some form of evidence. Plaintiff cites as
support for her assertion paragraphs 14, 29, and 133
of her Response to Defendants’ Statement of Material
Facts. (Doc. 163.) Paragraphs 14, 29, and 133, however,
do not contain a single citation to the record that supports
Plaintiff’s proposition that guards noticed Plaintiff’s
breasts and for that reason placed her in Administrative
Segregation. Indeed, Plaintiff’s citations do not even
support the assertion that guards noticed her breasts
or feminine appearance. Thus, even if Plaintiff had not
made a Rule 36 admission, she has still failed to offer any
support for her assertion, and the Court cannot declare
any genuine issue of material fact as to why prison officials

58a
Appendix B
initially placed Plaintiff in Administrative Segregation. It
must accept Plaintiff’s own explanation — officials placed
her in Administrative Segregation because the prison
lacked adequate bed space.
Plaintiff’s other evidence similarly fails to provide
sufficient evidence of deliberate indifference. For example,
although Plaintiff asserts that Warden Hooks “reviewed
the sexual assault reports,” she provides no evidence to
prove her assertion. At deposition, Plaintiff inserted the
reports into evidence but failed to ask Warden Hooks any
questions as to when he reviewed the records, how often
he reviewed the records, or whether he was ever aware
of the records. In fact, Plaintiff asked Warden Hooks no
questions about the report and made no attempt to gather
any evidence that Warden Hooks knew of the report and
had knowledge of its contents.
But, even assuming that Warden Hooks did review the
records, they hardly establish that he subjectively knew
Plaintiff was in substantial danger of assault. The sexual
assault report Plaintiff cites is not sufficient evidence
to prove either a substantial risk of harm or that any
Defendant had knowledge of such harm and recklessly
disregarded it. The report records assault allegations
and the actions taken by prison officials in response
to the allegations. (Doc. 167.) It spans five years and
encompasses the entire 1,500 person prison, not merely
Al Dormitory. (Id.) By the Court’s count, it details twentyeight allegations of sexual assault over that five year
period, or, a little over five recorded allegations per year.
Also by the Court’s count, of the twenty-eight recorded

59a
Appendix B
allegations, three occurred in Building A, four in Building
B, two in Building C, four in Building F, three in Building
G, two in Building H, and ten in undisclosed locations.
The charts also make clear that not all allegations are
credible and that some allegations are later retracted.
(See 167 at 16, 26-28.)
Plaintiff has the burden of producing enough evidence
such that a reasonable jury could conclude that Warden
Hooks, or any Defendant, subjectively knew of a substantial
harm to Plaintiff and also recklessly disregarded that risk.
First, the report does not establish a substantial risk
of harm to Plaintiff, or any prisoner. While any sexual
assault is one too many, twenty-eight allegations of rape —
not confirmed incidents — over the course of five years in
a 1,500 person prison is not a substantial risk. Prisons are
dangerous places because they are filled with people who
society has already deemed too dangerous to live amongst
law abiding persons. Prisoners will always be at some
risk of harm simply by being surrounded by these people.
Furthermore, the report itself shows that, at a minimum,
Warden Hooks did not recklessly disregard a known risk
of sexual assault. A review of the report indicates that
Warden Hooks consistently instructed his employees
to investigate every allegation. Thus, the sexual assault
reports do not satisfy Plaintiff’s evidentiary burden that
Plaintiff faced a substantial risk of harm.
Nor does Plaintiff’s allegation of subjective knowledge
based upon Plaintiff’s letter to her mother or her alleged
letter to Deputy Warden Brown stand up to scrutiny.
Upon receiving notice of Plaintiff’s letter to her mother,

60a
Appendix B
Warden Hooks took swift action to investigate Plaintiff’s
allegations. On the same day he became aware of Plaintiff’s
letter, Warden Hooks held a meeting with Plaintiff and
Deputy Warden Brown during which Plaintiff denied
she was in danger and refused to identify any potential
assailant. Moreover, Plaintiff had the opportunity to
speak with her mother in the presence of Warden Hooks.
Plaintiff, however, gave Warden Hooks no information that
could have enabled him to help her. Finally, Warden Hooks
took additional measures to protect Plaintiff by providing
her with paperwork that concealed from the other inmates
in Al Dormitory the true purpose of their meeting.
Given the lengths to which Warden Hooks went to
investigate Plaintiff’s complaint and Plaintiff’s steadfast
refusal to tell him the truth, no reasonable jury could find
that he subjectively knew she was in danger. Although
Hooks and Brown could have chosen to disbelieve Plaintiff
in spite of her confidential assurances to the contrary, the
Constitution does not require them to do so. It is illogical
to conclude that Plaintiff could successfully claim prison
officials not only should have known, but did in fact know,
that she was in danger, despite her personal assurances
that she was not.
Plaintiff’s alleged letter to Deputy Warden Brown also
fails to establish subjective knowledge. While Plaintiff
might have written a letter to Deputy Warden Brown
alleging Ricard as her assailant, she has provided no
evidence of this letter other than her own testimony.
But, even taking her testimony as true for purposes of
summary judgment, Plaintiff has provided no evidence

61a
Appendix B
that Deputy Warden Brown, or any Defendant, ever
received or had knowledge of the letter. Moreover, simply
receiving the letter would not have established deliberate
indifference because “the official must both be aware of
facts from which the inference could be drawn that a
substantial risk of serious harm exists, and he must also
draw that inference.” 718 F.3d at 1332.
A genuine dispute exists only “if the evidence is
such that a reasonable jury could return a verdict for the
non-moving party.” Anderson, 477 U.S. at 248. Plaintiff
has not provided sufficient evidence that a reasonable
jury could conclude Defendants not only received the
letter but subjectively knew that Plaintiff was at a risk of
substantial harm. Such a conclusion would subject every
official to trial if a prisoner merely alleged that she wrote
a letter claiming abuse. Thus, Plaintiff’s claim that she
sent a letter to Defendants, without more, does not create
a genuine dispute of material fact.
The Court also finds that even if one takes a holistic
view of all potential inferences from each piece of evidence
offered by Plaintiff, Plaintiff has still failed to produce
sufficient evidence such that a reasonable jury could find
Defendants subjectively knew Plaintiff was in substantial
danger. Thus, the Plaintiff has failed to provide sufficient
evidence of deliberate indifference.
2.

Disregard of a Substantial Risk

Even if Defendants did have subjective knowledge of
a substantial risk, however, Plaintiff offers insufficient

62a
Appendix B
evidence that any Defendants disregarded that risk.
Plaintiff ’s main argument on this element is that
Defendants consciously disregarded a substantial risk
to Plaintiff when they placed her in a cell with Ricard.
Plaintiff produces some evidence that one Defendant
might have authorized Plaintiff to be placed with Ricard
(no one can dispute that somebody in the prison authorized
the move), but Plaintiff fails to put forth any evidence
that any Defendant knew that pairing the two prisoners
together would have placed Plaintiff at a substantial risk of
serious harm. Sure, Ricard had a criminal history of rape,
but Plaintiff produced no evidence that any Defendant
knew Ricard’s criminal history at the time Plaintiff was
placed in his cell. Neither is it a reasonable inference that
they had such knowledge. Rodgers State Prison houses
over 1,500 inmates, many of them convicted of violent
felonies. Ricard was never labeled a PREA aggressor and
Plaintiff was never labeled a PREA victim. (Doc. 131-2 at
6-7.) Furthermore, despite spending several hours in a
secure location and giving testimony to officers, Plaintiff
never mentioned any problems with Ricard or any history
of sexual assault in A1 Dormitory.
The Court also notes that Plaintiff’s assertion that
Warden Hooks “authorized” Plaintiff to be in the same cell
as Ricard is quite a stretch. After scouring the citations
in Plaintiff’s brief, the Court concludes that Plaintiff’s
assertion stems from two Administrative Segregation
memos signed by Warden Hooks on September 21,
2012. The Administrative Segregation memos (each
prisoner had a separate memo on a separate piece of
paper) contained the cell number and bed number of

63a
Appendix B
each prisoner requesting Administrative Segregation.
Plaintiff’s inference is that because Warden Hooks could
have seen the bed assignments on the separate memos,
he must have approved Plaintiff and Ricard being placed
in the same cell. Plaintiff, however, has not provided
sufficient evidence to support this inference.
Plaintiff’s evidence is insufficient to create a genuine
dispute of fact over whether Warden Hooks disregarded
a substantial risk to Plaintiff when he signed the
Administrative Segregation memos. Administrative
Segregation memos are documents sent to the Warden
when prisoners request protective custody. (Doc. 141-1 at
2-3, Doc. 142-3 at 5-6.) Per prison policy, the Warden must
sign the memos before the Classification Committee can
determine if protective custody is warranted. (Id.; Doc.
131-4 ¶¶ 31-32; see Doc. 131-31.) The purpose of signing
the memos is not to “approve” the cell assignments of
inmates in Administrative Segregation. (Doc. 142 at 7172, 92-96.) The purpose is to review the merits of each
prisoner’s request. (Id.) The prisoner’s cell assignment
is secondary information. (See docs. 131-31, 131-32.)
Plaintiff cannot impute knowledge of a substantial risk
based on an inference that the Warden would recognize,
based on two separate memos, on two separate pieces
of paper, that two prisoners without a PREA aggressor
or PREA victim designation were not only placed in the
same cell, but should not have been placed in the same
cell. Warden Hooks testified that he could have up to fifty
such memos on his desk at a given time, and the prison
contains 1,600 inmates. (Doc. 142 at 93.) Additionally,
Warden Hooks testified that he did not notice that Ricard

64a
Appendix B
and Plaintiff were in the same cell at the time he signed
the two memos. (Id.) No reasonable jury could expect the
supervisor of such a large facility to have such substantial
knowledge of its numerous, ever-changing inmates and
connect all the various dots required to even have a hunch
that Plaintiff and Ricard should not have been placed
together — especially not under a standard more lenient
than gross negligence.
Plaintiff’s second piece of evidence that Defendants
disregarded a substantial risk is her evidence that
they left the doors to the four rooms of A1 Dormitory
unlocked during the night, contrary to prison protocol.
This evidence, however, fails to demonstrate a disregard
for a serious harm. A1 Dormitory is a general population
dormitory that allows all prisoners to roam freely, even
under standard protocol, for 18 hours a day. (See Doc. 141
at 61-64.) The four rooms left unlocked housed sixteen
inmates apiece. (Doc. 142 at 84-85; Doc. 131-4 at 5-6.)
The logical conclusion of Plaintiff’s inference, then, is
that not locking the doors of four sixteen person rooms
for six hours of the day that happen to occur when the
sun is no longer in the sky amounts to a substantial risk
of serious harm, and Defendants disregarded that risk
when the failed to enforce the policy of locking the doors.
The Court declines to make such a declaration. While
Defendants might have acted negligently, their failure to
lock the doors, in light of all the evidence, does not present
sufficient evidence such that a reasonable jury could find
Defendants disregarded a substantial risk to Plaintiff.
Plaintiff’s other allegations do not fare much better.
Plaintiff alleges that Defendant Hooks disregarded a

65a
Appendix B
substantial risk to Plaintiff because “there is no evidence
that Hooks took any disciplinary measures against
inmates who engaged in consensual or non-consensual
sex acts, even though he reviewed the sexual misconduct
reports — the brightest example of this is that Hooks
did not ensure that Ricard received a disciplinary report
after Ricard sexually assaulted Green.” (Doc. 162 at 6.)
This evidence is misleading in several respects.
First, Warden Hooks did not, as Plaintiff suggests,
ignore Ricard’s alleged rape. After the incident, a Sexual
Assault Response Team conducted an investigation
and determined that the allegations of rape were
substantiated. (Doc. 142-15.) Warden Hooks then referred
the incident to the Internal Investigation Unit and allowed
them to conduct a full investigation. (Id.; Doc. 142 at 8183.) Subsequently, state prosecutors attempted to secure
an indictment from a two separate grand juries and both
refused to indict Ricard. (Doc. 171 at 15.)
Second, Plaintiff provides no evidence that Warden
Hooks failed to take disciplinary action when he should
have. She cites to the Sexual Assault Report and
Paragraph 144 of her response to Defendants’ Statement
of Material Facts, but neither supports an assertion that
Hooks failed to discipline inmates for sexual misconduct.
To the contrary, the Sexual Assault Report shows the
actions Warden Hooks took to investigate allegations
of sexual assault. Additionally, because the records
merely show the complaints alleged by inmates and the
immediate action taken by correctional officers, it provides
no evidence of substantiated claims of sexual assault or

66a
Appendix B
resulting discipline. Thus, it provides no evidence that
Warden Hooks failed to discipline prisoners who were
found to have committed sexual misconduct.
Paragraph 144 likewise includes no information
proving the assertion that “no one ever got disciplined for
consensual or nonconsensual sexual encounters.” Other
than the assertion that Ricard was not disciplined — a
misleading, if not false, assertion — Plaintiff provides no
evidence detailing cases deserving of discipline where no
discipline was given. She merely asserts that “no one ever
got disciplined” and cites the incident report of Darryl
Ricard. This is not sufficient evidence or citation for such
a bold assertion.
Plaintiff also asserts as evidence of disregard that
“Hooks was repeatedly told that control booths were
not manned inside the dorms, but again, Hooks took no
corrective action.” (Doc. 162 at 6.) Plaintiff cites as support
for this assertion minutes from a safety team meeting
as well as Paragraph 72 of her response to Defendants’
Statement of Material Facts. Once again, however,
Plaintiff’s assertion is misleading.
The minutes referred to by Plaintiff state the
following: “Due to the staff shortage in security control
rooms are not being manned in the dorms. Officers are
required to carry keys for the building inside living areas.”
(Doc. 163-8.) These minutes, however, are not the whole
story. Deputy Warden Brown unambiguously testified
that the control room in building A was always manned,
and he explained why it was always manned:

67a
Appendix B
Q: Out of the seven control rooms that you just
named, which control rooms were not being
manned during the month of July 2012?
A: Specifically, I can’t say. But if — if any, it
would have only been available — or there
would have only been three that they could not
have manned during that month.
Q: Which were those?
A: B, C, and F Builidng.
Q: Why is that?
A: Population dormitories on both sides of the
building. There’s population all around.
Q: Oh, okay. I got you. So A is not population
dormitories because it has seg units —
A: The seg unit —
Q: — on one side?
A: — side of A building requires the control
room to be manned.
Q: Okay. So that was what I was trying to get. So
you can say for certain that — from July 1, 2012,
through September 22, 2012, that the control
room in the A building was being manned?
A: Yes.
(Doc. 141 at 41-42.)

68a
Appendix B
Even after taking this deposition, Plaintiff procured
no other evidence showing to which building the Safety
Meeting notes referred. No reasonable jury could agree
with Plaintiff’s interpretation of the facts. While the
evidence presented might create a mere inference that
the control room in A1 Dormitory was not manned on a
regular basis, given the totality of the evidence, such an
inference is not reasonable.
B. Supervisory-Liability Claim
In addition to her claims of deliberate indifference,
Plaintiff also makes supervisory-liability claims against
Hooks, Brown, and Grubbs for proximately causing
Green’s injuries. Supervisory defendants may only be
held liable under § 1983 “if they personally participated
in the allegedly unconstitutional conduct or if there is
‘a causal connection between [their] actions . . . and the
alleged constitutional deprivation.’” West v. Tillman, 496
F.3d 1321, 1328 (11th Cir. 2007) (quoting Cottone v. Jenne,
326 F.3d 1352, 1360 (11th Cir. 2003)). They cannot be held
liable for the unconstitutional acts of their subordinates
under the traditional tort standards of respondeat
superior or vicarious liability. Cottone, 326 F.3d at 1360.
Because the Court has already determined that no
unconstitutional conduct occurred, Plaintiff cannot prove
that any Defendant personally participated in or caused a
constitutional deprivation. Thus, Plaintiff’s supervisoryliability claims fail.

69a
Appendix B
C

Qualified Immunity

Qualified immunity aims to limit personal liability
of government officials by allowing them to “reasonably
anticipate when their conduct may give rise to liability
for damages.” Anderson v. Creighton, 483 U.S. 635,
646, 107 S. Ct. 3034, 97 L. Ed. 2d 523 (1987)(internal
quotations omitted). It provides that “government
officials performing discretionary functions generally are
shielded from liability for civil damages insofar as their
conduct does not violate clearly established statutory or
constitutional rights of which a reasonable person would
have known.” Harlow v. Fitzgerald, 457 U.S. 800, 818,
102 S. Ct. 2727, 73 L. Ed. 2d 396 (1982)(citations omitted).
Establishing qualified immunity is a two-step process.
First, the official must “prove that he was acting within
the scope of his discretionary authority when the allegedly
wrongful acts occurred.” Vinyard v. Wilson, 311 F.3d 1340,
1346 (11th Cir. 2002) (quoting Lee v. Ferraro, 284 F.3d
1188, 1194 (11th Cir. 2002)). If “the defendant establishes
that he was acting within his discretionary authority,
the burden shifts to the plaintiff to show that qualified
immunity is not appropriate.” Id. To prove qualified
immunity is not appropriate at the summary-judgment
stage, the Plaintiff must prove (1) that the officer’s actions
violated the constitution, and (2) the constitutional right
violated was clearly established. See id. at 1346.
All Defendants involved in this litigation were acting
under their discretionary authority, thus the question to
be answered is whether Plaintiff has provided sufficient

70a
Appendix B
evidence such that a reasonable jury could conclude that
any of the Defendants’ actions violated the Constitution
and the constitutional right violated was clearly
established. As this Court has already discussed, none of
Defendants’ actions violated the Constitution. Because the
Defendants did not violate a constitutional right, the Court
cannot address whether the right was clearly established.
Thus, Defendants are entitled to qualified immunity.
IV. Conclusion
In reaching its conclusion, the Court stresses that
the Plaintiff’s failure to produce evidence of deliberate
indifference does not necessarily mean that officials at
Rodgers State Prison did nothing wrong. The Court
is simply bound by the high standards of deliberate
indifference mandated by the Constitution and the
Supreme Court.
Because Plaintiff has failed to establish deliberate
indifference, and because Defendants are entitled to
qualified immunity, the Court GRANTS Defendants’
motion for summary judgment. (Doc. 131.) The Court also
DENIES as moot Defendants’ motion to exclude expert
testimony. (Doc. 134.) It DIRECTS the Clerk to CLOSE
this case and ENTER JUDGMENT in favor of Defendants
and against Plaintiff.
ORDER ENTERED at Augusta, Georgia, this 21st
day of March, 2017.

71a
Appendix B
		
		
		
		

/s/ J. Randal Hall
HONORABLE J. RANDAL HALL
UNITED STATES DISTRICT JUDGE
SOUTHERN DISTRICT OF GEORGIA

